<html>
<title> - AN UPDATE ON THE IMPLEMENTATION OF THE FOREVER GI BILL, THE HARRY W. COLMERY EDUCATIONAL ASSISTANCE ACT OF 2017</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]



 		AN UPDATE ON THE IMPLEMENTATION OF THE 
 		  FOREVER GI BILL, THE HARRY W. COLMERY 
 		  EDUCATIONAL ASSISTANCE ACT OF 2017

=======================================================================

                                HEARING

                               before the

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                       TUESDAY, DECEMBER 12, 2017

                               __________

                           Serial No. 115-41

                               __________

       Printed for the use of the Committee on Veterans' Affairs
       
       
                 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
                 

        Available via the World Wide Web: http://www.govinfo.gov
        
        
                    U.S GOVERNMENT PUBLISHING OFFICE
                    
31-615                    WASHINGTON : 2019      





                     COMMITTEE ON VETERANS' AFFAIRS

                   DAVID P. ROE, Tennessee, Chairman

GUS M. BILIRAKIS, Florida, Vice-     TIM WALZ, Minnesota, Ranking 
    Chairman                             Member
MIKE COFFMAN, Colorado               MARK TAKANO, California
BRAD R. WENSTRUP, Ohio               JULIA BROWNLEY, California
AMATA COLEMAN RADEWAGEN, American    ANN M. KUSTER, New Hampshire
    Samoa                            BETO O'ROURKE, Texas
MIKE BOST, Illinois                  KATHLEEN RICE, New York
BRUCE POLIQUIN, Maine                J. LUIS CORREA, California
NEAL DUNN, Florida                   KILILI SABLAN, Northern Mariana 
JODEY ARRINGTON, Texas                   Islands
JOHN RUTHERFORD, Florida             ELIZABETH ESTY, Connecticut
CLAY HIGGINS, Louisiana              SCOTT PETERS, California
JACK BERGMAN, Michigan
JIM BANKS, Indiana
JENNIFFER GONZALEZ-COLON, Puerto 
    Rico
                       Jon Towers, Staff Director
                 Ray Kelley, Democratic Staff Director
                 

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

                    JODEY ARRINGTON, Texas, Chairman

GUS BILIRAKIS, Florida               BETO O'ROURKE, Texas, Ranking 
BRAD WENSTRUP, Ohio                      Member
JOHN RUTHERFORD, Florida             MARK TAKANO, California
JIM BANKS, Indiana                   LUIS CORREA, California
                                     KATHLEEN RICE, New York

Pursuant to clause 2(e)(4) of rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.
                            
                            
                            
                            C O N T E N T S

                              ----------                              

                       Tuesday, December 12, 2017

                                                                   Page

An Update On The Implementation Of The Forever GI Bill, The Harry 
  W. Colmery Educational Assistance Act Of 2017..................     1

                           OPENING STATEMENTS

Honorable Jodey Arrington, Chairman..............................     1
Honorable Beto O'Rourke, Ranking Member..........................     3

                               WITNESSES

MG Robert M. Worley II USAF (Ret.), Director, Education Service, 
  Veterans Benefit Administration, U.S. Department of Veterans 
  Affairs........................................................     3
    Prepared Statement...........................................    23

        Accompanied by:

    Mrs. Charmain Bogue, Deputy Director, Education Service, 
        Veterans Benefits Administration, U.S. Department of 
        Veterans Affairs

    Mr. Lloyd Thrower, Acting Information Technology Account 
        Manager, Benefits Portfolio, Office of Information & 
        Technology, U.S. Department of Veterans Affairs
Mr. William Hubbard, Vice President of Government Affairs, 
  Student Veterans of America....................................     5
    Prepared Statement...........................................    25
Mrs. Kathleen Moakler, Director, External Relations and Policy 
  Analysis, Tragedy Assistance Program for Survivors.............     7
    Prepared Statement...........................................    28

                        QUESTIONS FOR THE RECORD

FROM: The Honorable David J. Shulkin M.D. Secretary TO: VA.......    31



 
 AN UPDATE ON THE IMPLEMENTATION OF THE FOREVER GI BILL, THE HARRY W. 
               COLMERY EDUCATIONAL ASSISTANCE ACT OF 2017

                              ----------                              


                       Tuesday, December 12, 2017

            Committee on Veterans' Affairs,
                    U. S. House of Representatives,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to notice, at 2:05 p.m., in 
Room 334, Cannon House Office Building, Hon. Jodey Arrington, 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Arrington, Bilirakis, Wenstrup, 
Rutherford, Banks, O'Rourke, Correa, and Rice.

             STATEMENT OF JODEY ARRINGTON, CHAIRMAN

    Mr. Arrington. Good afternoon, everyone. This Subcommittee 
will come to order.
    I want to apologize in advance, I am going to have to step 
out. And I will return shortly and have asked Congressman 
Bilirakis to preside in my absence. So, thank you for that.
    I want to thank everybody for joining us for today's 
hearing of the Subcommittee on Economic Opportunity of the 
House Committee on Veterans' Affairs, where we will begin our 
first oversight hearing on the implementation of H.R. 3218, the 
Harry W. Colmery Veterans Educational Assistance Act of 2017, 
also known as the Forever GI Bill.
    This bill was signed into law by President Trump on August 
16th, 2017. It is a great example of what Congress can do when 
we put the American people and, in this case, our veterans 
first and foremost.
    In addition to the efforts of Chairman Roe and other 
Members of this Committee, the Forever GI Bill was the result 
of the good efforts of many of our VSOs, two of whom are joined 
here with us today on the panel: Student Veterans of America 
and the Tragedy Assistance Program for Survivors.
    This was the first major improvement to the GI Bill since 
2011 and encompassed over 30 provisions brought forth by many 
Members of this House who share all of our commitments to the 
men and women who serve either in uniform or alongside their 
active duty spouse or parent.
    While we can all be proud of this collective achievement to 
pass the Forever GI Bill, this Subcommittee's work has just 
begun and it is critical that we work in tandem with the VA, 
with veterans groups, and other stakeholders, as the Department 
begins the implementation of this newly expanded and revised 
bill, so that we can ensure that it is rolled out seamlessly.
    Many of you can remember the significant delays that 
beneficiaries experienced back in 2009. I actually wasn't here 
then, but I am told there were delays in 2009 and we don't want 
that in this round of implementations. And this happened after 
the passage of the Post-9/11 GI Bill and I am sure, again, we 
can all agree that such delays can't happen again. And it is 
our job to identify any problems and solve them and have a 
smooth implementation, cost-effective for all stakeholders 
involved.
    I would be remiss if I didn't acknowledge the VA's 
Education Service's efforts to schedule regular calls with the 
Committee staff on both sides of the Hill to update them on the 
implementation. However, I think it is important that we have 
these hearings, so that we can discuss as Committee Members and 
we, as Committee Members, can lend our support and our help to 
you, General Worley, and others in the Department as you work 
to implement this reform package.
    I do have some concerns about the focus this process is 
getting from the VA senior leadership. This is a theme for me, 
it seems, as we have found that education programs are often 
overlooked within the Department as a whole.
    I understand the Secretary and his leadership team have 
many priorities, but I hope they understand that it will be no 
small feat to execute such a large reform initiative such as 
this bill, which will result in over $3 billion worth of 
changes to the GI Bill for generations of veterans and their 
families to come.
    Our investments and the taxpayers' investments in veterans' 
education benefits and the impact that the Forever GI Bill will 
have on our future success of student veterans is, I am sure 
you will agree, an extremely important endeavor and we have got 
to get it right. So I urge the Secretary and this 
Administration to do whatever they have to do to give folks the 
resources, especially the IT resources in this case, that they 
need to roll this package out effectively without major 
hiccups, again, like we saw or were experienced in 2009.
    Before I yield to Ranking Member O'Rourke, I do want to 
focus in for just a moment on these IT resources I just 
mentioned. I am anxious to hear some of the testimony and I 
certainly have some questions about this.
    Since joining this Committee, it has always been clear that 
VA's IT systems and plan upgrades are often so convoluted that 
when Congress makes changes to the GI Bill or forms needs to be 
updated, the patchwork system of IT programs is not able to 
keep up, which can cause significant delays for student 
veterans. I am concerned, because the Subcommittee has been 
told during multiple hearings in the past that the plans for 
these systems would ensure agility, so that the VA could 
quickly address the changes that were made in the law. As we 
have seen, however, that just hasn't been the case.
    Directing IT resources to education programs is not often a 
focus of the Department and I hope this practice does not 
continue, especially for something as important as the Forever 
GI Bill. And I look forward to continuing to work with the VA 
and my fellow Members to ensure these resources are provided 
where and when needed.
    Now I want to yield to my friend and Ranking Member, Mr. 
O'Rourke, for any opening remarks he might have.

           STATEMENT OF BETO O'ROURKE, RANKING MEMBER

    Mr. *O'Rourke.* Thank you, Mr. Chairman.
    There is not too much that I can add to your excellent 
opening comments, but to thank you and the majority staff and 
the minority staff for ensuring that we have a successful 
hearing today for those about to testify, for our colleagues 
and their questions. I think all of us want to make sure that 
the Forever GI Bill is implemented successfully, and that we 
anticipate any concerns ahead of time and work constructively 
together between Congress and the Administration to see how we 
can ensure that those are resolved.
    And, like the Chairman, I see the biggest challenge being 
one with IT. So I appreciate the fact that General Worley is 
here and that he has brought someone who can help to answer 
those questions, and suggest how we work together to ensure 
that this goes smoothly and seamlessly for transitioning 
servicemembers and for veterans.
    I also want to thank the Veterans Service Organizations 
that are here today to testify. I am looking forward to hearing 
what they have to say.
    I yield back.
    Mr. Arrington. I want to thank the Ranking Member.
    I now invite our first and only panel to the table. With us 
today, we have General Robert Worley, Director of VA's 
Education Service, who is accompanied by Mrs. Charmain Bogue, 
Deputy Director of VA's Education Service, and Mr. Lloyd 
Thrower, Acting Information Technology Account Manager for the 
Benefits Portfolio within VA's Office of Information and 
Technology.
    Mr. William Hubbard, Vice President of Government Affairs 
for Student Veterans of America; and Mrs. Kathleen Moakler, 
Director of External Relations and Policy Analysis at Tragedy 
Assistance Program for Survivors.
    So thank you guys again for being here today. Before we 
begin with your testimonies, I ask that the witnesses, if you 
would please stand and raise your right hand.
    [Witnesses sworn.]
    Mr. Arrington. Thank you. Please be seated.
    Let the record reflect that all witnesses answered in the 
affirmative.
    Your complete written statements will be made part of the 
hearing record and all of you will be recognized for 5 minutes 
for your oral statements.
    Let's begin with you, General Worley. You are now 
recognized for 5 minutes.

        STATEMENT OF MG ROBERT M. WORLEY II USAF (RET.)

    General *Worley.* Thank you, Mr. Chairman. Good afternoon, 
Chairman Arrington, Ranking Member O'Rourke, and other Members 
of the Subcommittee.
    I am pleased to be here today to discuss VA's work on 
implementing the Harry W. Colmery Veterans Educational 
Assistance Act of 2017, also referred to as the Forever GI 
Bill.
    Accompanying me today is Mr. Lloyd Thrower, Office of 
Information Technology, Account Manager for the Benefits 
Portfolio, and Mrs. Charmain Bogue, Deputy Director for 
Operations in Education Service, and VA's project lead for 
Colmery Act implementation.
    On August 16th, 2017, the President signed into law the 
Colmery Act, which makes sweeping changes, which corrects 
inequities, expands benefits, and truly changes the way we view 
the GI Bill for the future. It is the most comprehensive set of 
changes to education benefits since the enactment of the Post-
9/11 GI Bill in 2009.
    The Colmery Act has become known as the Forever GI Bill 
because its most recognized feature is the removal of the 15-
year time limitation for eligible dependents and veterans 
transitioning out of the military after January 1st of 2013 to 
use their Post-9/11 GI Bill benefits.
    Other important features of the law are that it restores 
benefits to veterans who were impacted by school closures since 
2015, expands opportunities for STEM and IT training, provides 
increases in funding for state approving agencies, and enhances 
benefits for surviving dependents and Purple Heart recipients.
    The importance and complexity of the Colmery Act led VA to 
establish a cross-functional Program Executive Office within 
existing resources responsible for leading and coordinating all 
Forever GI Bill implementation activities.
    Also in record time, VA awarded a 12-month program 
management contract that provides further support to the PEO 
through the addition of additional expertise and IT training 
and communications.
    The law requires a significant IT effort with 22 of the 34 
provisions requiring IT modifications at an estimate of $70 
million. OI&T has committed to providing a solution for the 
most pressing of these provisions, Sections 107 and 501, which 
change the way VA pays monthly housing benefits.
    VA will assure continued timely processing of additional 
claims related to the Colmery Act and will stand up new 
initiatives such as the Edith Nourse Rogers STEM Scholarship by 
establishing specialized teams, using its more experienced 
claims processors, and by hiring 202 additional temporary 
employees in the field.
    VA has taken significant steps since the law's signing, 
first focusing on the 15 provisions that were effective on date 
of enactment, and executing an expansive and multifaceted 
communications campaign to highlight and promote the Colmery 
Act's improvements to affected beneficiaries and other 
stakeholders.
    Specifically, VA has promoted the Colmery Act extensively 
through a new Web page, social media, a variety of outreach 
activities, traditional media, as well as frequently asked 
questions. VA has been posting multiple updates on its GI Bill 
Facebook page. And in November, VA held a Forever GI Bill 
Twitter Town Hall, reaching over 170,000 users, and 
participated in a satellite media tour, conducting interviews 
with 23 radio and television stations, reaching 4 million 
viewers and listeners. We also have sent out three mass emails 
to 1.2 million stakeholders, and have conducted multiple 
briefings to school certifying officials and Veterans Service 
Organizations.
    As you know, many of the Act's provisions target certain 
categories of beneficiaries, so VA is also conducting more 
targeted notification where and when needed. For example, we 
have identified and notified nearly 8,000 education 
beneficiaries that may be eligible for restoration of 
entitlement under the school closure provision. In just under 
one month, VA has already received over 400 applications and 
has restored 1800 months of entitlement to over 200 
beneficiaries.
    In just under 4 months, VA has moved out quickly and is 
working hard on successfully implementing all of the provisions 
of the Colmery Act on time. There is a great deal of work 
remaining, with 13 of 34 provisions effective on August 1st of 
2018. VA has already started on revising regulations, 
developing policy, designing training, preparing 
communications, and more as we move forward.
    We look forward to continuing to work with all of our 
partners and stakeholders on these efforts.
    Thank you for the opportunity to testify today, Mr. 
Chairman. I look forward to responding to any questions the 
Committee may have.

    [The prepared statement of General Worley appears in the 
Appendix]

    Mr. Bilirakis. [Presiding.] Now we will recognize Mr. 
Hubbard. You are recognized for 5 minutes. Thank you.

                STATEMENT OF MR. WILLIAM HUBBARD

    Mr. Hubbard. Mr. Chairman, Ranking Member O'Rourke, and 
Members of the Committee, thank you for inviting Student 
Veterans of America to testify on the implementation of the 
Forever GI Bill.
    With nearly 1500 chapters representing over 1.1 million 
student veterans in schools across the country, we are pleased 
to share the perspective of those directly impacted by the 
subjects before this Committee.
    Signed into law this August, H.R. 3218, commonly known as 
the Forever GI Bill, made history. As one of the most 
significant pieces of higher education legislation to occur 
this century, millions of service-affiliated students will have 
greater access to education and training, thanks to the efforts 
of this Committee and the 115th Congress.
    We would like to share some brief history and intent from 
our perspective on the legislation, which was a case study in 
partnership and bipartisan discussion.
    This past year, we launched a special focus on the 
importance of sustainability in programs, driven by outcomes 
and fueled with data-driven decision-making. The Forever GI 
Bill includes dozens of solution-oriented provisions such as 
the work study authorization, Science Technology Engineering 
and Math scholarships, removal of the time limit on the GI 
Bill, and many other provisions, which increase access to 
education.
    The new law will also address inequities of this earned 
benefit and looks forward to the future well beyond our own 
generation. As leading advocates for the bill, we are committed 
to the complete and timely implementation of this law. With 
that interest in mind, we thank the Committee for this 
opportunity to highlight several key areas of success, as well 
as some which have room for improvement.
    We applaud the Department of Veterans Affairs for their 
dedicated staff, for demonstrating great initiative in 
implementing the Forever GI Bill, especially their very public 
communications effort to make those affected aware of upcoming 
opportunities.
    Until the Forever GI Bill, student veterans attending 
schools with unexpected closures were the only students in 
higher education with no reasonable recourse to recoup their 
benefits. The most prolific examples of these include the 
closures of Corinthian Colleges and ITT Tech. Unfortunately, 
thousands of student veterans were adversely affected due to 
the poor performance of these schools, and we applaud VA for 
producing an application for these students to apply for 
restoration of their benefits.
    We are concerned that so few students have applied for the 
restoration of benefits under the school closure provision 
since the notice from VA went out to these students. Like our 
concerns with reaching eligible Purple Heart recipients, the 
integrity of individual contact information within the VA 
system may not be reliable. We encourage VA to partner with 
external organizations such as Student Veterans of America and 
others to reach out to the widest audience possible.
    Turning to the Edith Nourse Rogers STEM Scholarship. This 
provision originated from H.R. 5784 from the 113th Congress, 
the GI Bill STEM Extension Act, a bipartisan bill cosponsored 
by Congressman David McKinley and Congresswoman Dina Titus. We 
were a proud partner in the formation and advocacy of this 
effort, and we are pleased to see it as a law. Student veterans 
consistently site this as a component of the Forever GI Bill 
with which they have the greatest interest.
    As the Forever GI Bill was being developed, it became 
increasingly clear that the implementation costs, particularly 
IT changes and upgrades, would be a significant driver of cost. 
We have major concerns on whether or not the offices 
implementing this law are receiving adequate resources to 
execute this overall.
    The Forever GI Bill represents a significant shift in 
education for veterans and in higher education in general. More 
important than inputs and outputs are outcomes; that is more 
apparent today than ever. The GI Bill is an American success 
story because it has demonstrated results.
    As President Thomas Jefferson said in 1808, the same 
prudence which in private life would forbid us paying our own 
money for unexplained projects forbids it in the dispensation 
of public monies. With the implementation of Forever GI Bill we 
raise the question, who should be allowed to play in GI Bill 
land? Consider the precedent of the VA Home Loan Program. Many 
banks do not qualify for these loans due to the rigorous and 
strict standards, leading to outcomes impressive by any 
standard, and perhaps the same should be thought about for the 
GI Bill.
    We thank the Chairman and the Ranking Member for inviting 
us to testify, and look forward to any questions you may have.

    [The prepared statement of Mr. Hubbard appears in the 
Appendix]

    Mr. Bilirakis. Thank you so very much.
    Now I will recognize Mrs. Moakler for 5 minutes.
    Mrs. Moakler. Thank you.
    Mr. Bilirakis. You're welcome.

               STATEMENT OF MRS. KATHLEEN MOAKLER

    Mrs. Moakler. Mr. Chairman, Ranking Member O'Rourke, and 
distinguished Members of the Subcommittee, the Tragedy 
Assistance Program for Survivors thanks you for the opportunity 
to talk about issues important to the families we serve, the 
families of the fallen.
    While the mission of TAPS is to offer comfort and support 
for surviving families, we are also committed to improving 
support provided by the Federal Government for the families of 
the fallen: those who fall in combat, those who fall from 
invisible wounds, and those who die from illness or disease. 
TAPS appreciates the attention the Committee has paid to making 
sure that veterans and surviving family members have benefits 
that give them access to quality education.
    TAPS provides specialized support through our Web education 
portal regarding the education benefits available for the 
children and spouses of America's fallen heroes. TAPS staff 
members work with each individual to maximize the financial 
support they can receive to complete their education from both 
government and private agencies. This also allows us to hear 
from the survivors where they encounter problems and stumbling 
blocks in the process.
    We are most grateful for the provisions included in the 
Harry W. Colmery Veterans Educational Assistance Act of 2017 
that support survivors, and most appreciative of the 
opportunity to comment on the implementation of this 
legislation.
    We have heard from many of TAPS surviving spouses 
concerning the implementation of the Forever GI Bill. While 
they are most appreciative of the enhanced benefit, many have 
concerns. We have worked with the VA to solve many of them.
    First of these is the delimitating date, the date found on 
a VA certificate of eligibility that informs the individual of 
the date they are no longer eligible for education benefits. As 
of early December, eligible students are still receiving the 
letters with the 15-year delimitating date. While some students 
are aware of the delimitation date, they are reluctant to 
actualize their education plan until they have the correct 
information on their certificate of eligibility.
    TAPS did query the VA Office of Economic Opportunity about 
this discrepancy. The office offered that while IT upgrades are 
in process the system does not currently allow the letter to go 
out without a delimitating date. We appreciate the steps that 
this office has taken to develop a work-around, including 
enhanced training to call center personnel to assure eligible 
recipients that indeed there is no delimitating date; sending 
letters informing spouses that have previously applied that 
there is no delimitating date; and manually changing new 
certificates of eligibility until they find a permanent 
solution.
    As said before, the success of the implementation is 
entirely dependent on changes to the IT system. We hope there 
will be appropriate funding to expedite this process.
    While mandatory training for school certifying officials is 
included in the Forever GI Bill, we are concerned about the 
schools being fully aware of the changes coming in August 2018. 
Information is being pushed out by the VA. We hope there will 
be coordination within the schools, so that the person actually 
talking to the student is aware of the changes.
    TAPS' biggest concern with all the changes being 
implemented in August is that there will be delayed payments 
for veterans and survivors enrolled in the fall 2018 semester. 
Even with the few changes that went into effect this fall, 
there were issues with schools demanding payment from the 
students because of delayed VA payments. Students receiving VA 
payments were not allowed to attend classes, register for 
spring 2018, or use campus facilities because the VA payment 
was delayed. In some cases, students were put on payment plans 
they could not afford or forced to take out student loans with 
egregious origination fees in order to continue the education 
program.
    TAPS would recommend that students receiving VA payments 
have the same protection as those who receive Title IV funding 
such as Pell Grants and Federal student loans who are not 
penalized for a late payment. TAPS strongly believes that the 
best way to do this is through a legislation change. We have 
been in discussion with HVAC majority staff to assist these 
students.
    The proposed legislation would give the Sec VA the ability 
to disapprove any course of education unless the educational 
institution providing the course permits individuals to attend 
or participate in courses pending payment from the VA and 
accepts a certificate of eligibility is a promise of payment.
    Continued cooperation between the VA, the Committee, and 
interested VSOs, MSOs, and survivor advocates is essential to 
make the implementation of the Forever GI Bill a success. TAPS 
will continue to provide feedback to both the VA and the 
Committee on the experience of survivors.
    Thank you, and I look forward to your questions.

    [The prepared statement of Mrs. Moakler appears in the 
Appendix]

    Mr. Bilirakis. You're welcome. And I thank the panel for 
their testimony today.
    Now I will recognize myself for 5 minutes for questions. 
The first question will be for General Worley.
    General--first of all, thank you for your service to our 
country--General, on a conference call last week, Subcommittee 
staffs were informed that due to a problem with the VA's IT 
system the Department will still have letters and certificates 
of eligibility that will be sent out to the Chapter 33 
beneficiaries that show that their GI Bill benefits expire, 
despite the change made in Section 112 of the Forever GI Bill.
    On the call, the proposed work-around wasn't to fix the 
system, but to send the beneficiary a separate letter telling 
them to basically ignore the first letter.
    What are the Department's plans to address the situation, 
this particular situation, which if not addressed will 
certainly cause mass confusion for all program participants?
    And, you know, it is really--I can't believe that this is 
happening and, you know, our soldiers deserve better, they 
deserve certainty. So if you could please answer that question, 
I would appreciate it very much.
    General *Worley.* Thank you, Mr. Chairman. I couldn't agree 
more. We want to put out consistent and accurate information to 
our beneficiaries, and we appreciate the concern that the 
Committee has on this.
    I will answer this, I will start with part A of the answer 
and I will turn it over to Mr. Thrower to talk about part B of 
the answer.
    Part A of the answer has to do with the initial certificate 
of eligibility that was mentioned by our colleague here at the 
table. So that is the initial original claim that comes in and 
we issue a certificate of eligibility after we have done what 
we need to do to check eligibility requirements. Those are 
manually generated and we can, and we will start this month, 
manually updating those letters so that it is clear, because 
there will be--well, not for the certificates of eligibility 
starting now, but we have to check the eligibility and make 
sure it is after January of 2013, and then those letters will 
be updated accurately to reflect whether there is or is not a 
delimiting date.
    Mr. Bilirakis. How much time will that take to manually 
update the letters?
    General *Worley.* These letters are partially--they are 
manually produced anyway, the initial certificate of 
eligibility. So it is a little bit of added time to the claims 
examiner's work to do that, so it is not a big impact.
    The bigger impact that we were concerned about has to do 
with the enrollment letter--the award letters. So every term 
someone goes to school, they get an award letter that updates 
them on the amount of benefit they have left and what they are 
being paid in housing and so forth. Now, the reason these 
letters are difficult to change quickly is because they are 
integrated and tied into the code of the long-term solution, 
our automated solution.
    So I will turn it over to Mr. Thrower to talk about what we 
are doing with respect to the award letters.
    Mr. Bilirakis. Please.
    Mr. Thrower. Yes. Thank you.
    And, you know, since our discussions with staffers on 
Friday, we have actually gone back, I have been working with my 
engineering team and we have built--we will be delivering a 
work-around, we will be delivering a solution in our March 
release of LTS.
    The key thing here is making code changes to the logic that 
generates the letters. We are doing this at the same time while 
we are in a massive effort, which I discussed with this 
Committee back in June, of trying to decommission BDN, which is 
another system, part of that patchwork that Chairman Arrington 
that we are trying to clear up.
    So we are sort of in the process of eliminating the 
patchwork underneath the hood. At the same time then making 
changes within LTS while we are doing that is a problematic and 
risky thing that we are trying to manage that risk.
    That said, there are a few things that we are committed to 
doing and making happen within the LTS system while we are 
doing the decommissioning work on BDN. One of those will be the 
changes to letters. We will have those done within the March 
release of LTS.
    Mr. Bilirakis. Is there a possibility you can contact, 
obviously the heroes, to ease their mind, maybe verbally over 
the telephone, what have you? Maybe not an official notice, but 
have you considered that as well?
    Or, you know, if you can post it to a Web site or get it to 
the congressional offices, so that we can get the information 
if they call in?
    General *Worley.* Absolutely, we can do that. This is 
relatively late-breaking news, so we will put that on our 
media----
    Mr. Bilirakis. You definitely have to----
    General *Worley.* --on Facebook----
    Mr. Bilirakis. --get the word out, absolutely----
    General *Worley.* --on our updates to the Committee.
    Mr. Bilirakis. --Facebook, what have you----
    General *Worley.* Yes, sir.
    Mr. Bilirakis. --social media. We can all help.
    General *Worley.* Absolutely.
    Mr. Bilirakis. All right. I don't have much time left. Why 
don't I go ahead and yield to the Ranking Member. Thank you.
    You are recognized for 5 minutes.
    Mr. *O'Rourke.* Thanks.
    I have a number of questions, but I don't know that I 
understand the answer yet to Mr. Bilirakis' question on this 
15-year time limit. Are letters going out today still 
erroneously saying you have to use this within 15 years?
    General *Worley.* Yes.
    Mr. *O'Rourke.* And I am not a programmer, but I got to 
think that--and don't go into detail, but I got to think that 
that is not a 3-month fix. You said by March this will be 
fixed. I mean, can somebody as they are printed out just 
manually with a Sharpie cross that line out before it goes in 
or can we do that in the code?
    It doesn't sit with anyone, probably yourself included, 
General Worley. Is there a way we could do this now instead of 
in 3 months?
    General *Worley.* I don't think so, Congressman O'Rourke.
    I understand the incredulity of you can't change a letter 
quickly, but, again, the letters that go out are integrated and 
part of essentially the automated code. And they need to be 
that way, because we are sending personalized information to 
each beneficiary related to their benefits and how much they 
are getting and those kinds of things. It is not just going 
into a Word document and changing a few lines, it is much, much 
more complicated than that.
    So we would love to do it more quickly, but I am relying on 
our IT colleagues to tell us what is within the realm of the 
possible and how quickly we can do it.
    Mr. *O'Rourke.* And maybe there is someone out there in the 
private sector or in the volunteer community who would be 
willing to take a look at this code and offer their expertise 
if we are so taxed in being able to change this. Just not to in 
any way undermine the success that you have shown in being able 
to implement this following the August signing, but this is 
something that I think sticks out for everyone.
    Another issue that Ms. Moakler brought up is the delayed VA 
payments and she suggested using the Pell Grant model. Any 
thoughts on that, General Worley?
    General *Worley.* I don't have any particular view of that 
right now, sir. We haven't really addressed that issue in my 
office, I certainly would love to talk more about that. I 
suspect that would clearly take legislative change to do it 
that way----
    Mr. *O'Rourke.* Yeah. And you seem to----
    General *Worley.* --and we would be happy to work with the 
Committee.
    Mr. *O'Rourke.* Yes. So you will give us your feedback on 
that and I understand the majority staff may already be working 
on this. We would certainly from the minority side want to be 
able to work on this as well and make sure that we are 
successful.
    Mr. Hubbard, I loved your point about the outcomes more 
important than the inputs and we have had this conversation 
about several programs that come through this Committee. I want 
to make sure that we are fully measuring outcomes here as well, 
and you suggested that we should have greater scrutiny and 
higher expectations for the educational institutions that are 
participating.
    Any specific recommendations as we continue to perfect this 
law or administratively anything that General Worley could run 
with?
    Mr. Hubbard. Yes. Thank you for the question, Mr. O'Rourke, 
I appreciate that, and I think it is a relevant and really 
critical point.
    Today, and my colleagues from the VA can correct me, but I 
think it is somewhere in the realm of 14,000 programs are 
approved for GI Bill dollars. 14,000, that is crazy. All of 
those schools, I suspect, are not delivering good outcomes for 
student veterans. I know that firsthand, I could probably point 
out a couple that we all know of. And I think, ultimately, the 
focus on outcomes versus just what is going in and what is 
coming out is absolutely critical.
    What we know is student veterans are winners and, when 
given the right tools to succeed, they do every single time. 
And so that is something that we have a special focus on as it 
pertains to things that could be changed.
    There are some internal tools that I know of that the VA is 
taking a look at to increase their standards and really have 
some rigorous methodology as applied to who is available to get 
GI Bill dollars. I think that is something that perhaps the 
Committee would be interested in taking a look at and work with 
certainly us and many of our partners in the non-profit space 
to implement as well.
    Mr. *O'Rourke.* Yes. And I am going to yield back to the 
Chairman, but as I do, I think if we are able to follow this 
very good recommendation, I think it has to be tied to some 
measure of outcomes, so that we truly understand performance 
for these different programs; not just did the student complete 
the course of study, but then what was their earning potential 
in the following 10 years, or were they able to find a career 
or a role or function or purpose, and I think all those are 
incredibly important.
    So, thanks for raising that.
    Mr. Bilirakis. Agreed. I appreciate that.
    Mr. Rutherford, from the great State of Florida, my 
colleague, you are recognized for 5 minutes.
    Mr. Rutherford. Thank you, Mr. Chairman. And thank you, 
panel, for appearing here this afternoon.
    And, General, I would like to begin with you and ask, can 
you tell me how aware have you made the senior political 
leadership at VA aware of the challenges that implementation of 
this legislation has created for you?
    General *Worley.* I have personally briefed the Secretary 
just a matter of a few weeks after the Colmery Act became law 
with those challenges, both the IT assessment of about $70 
million and our initial assessment of what would be required in 
terms of people without IT solutions. So I am very confident 
that the Secretary is aware of those challenges.
    We have come a long way since that particular briefing in 
terms of the Office of Information & Technology stepping up to 
addressing the two most critical initial provisions dealing 
with housing allowance, which had the biggest people impact. 
And so those are underway, along with the massive effort on 
BDN, as Mr. Thrower mentioned. And some of that has been 
absorbed in terms of the funding. We need more funding later, 
but at this point we have come a long way. So, I think the 
senior leadership is aware of these challenges and we are 
getting the support.
    Mr. Rutherford. Okay. And to drill down on the IT a little 
bit, Mr. Thrower, 22 of 34 elements are going to require IT, as 
I heard earlier. Can you talk about, has there been 
anticipation of what the 2019 budget needs to look like to give 
you the capabilities that you need within IT to fully implement 
Colmery?
    Mr. Thrower. Yes, we have had pretty extensive discussions 
internally about what it would take to do this. And actually, 
at the Secretary's request, we have actually been looking at 
alternative approaches of managing this endeavor as well. One 
of the--for instance, one of the most significant things that 
we will have accomplished in eliminating--consolidating all 
education services around the LTS platform, eliminating BDN and 
several of the--a lot of the patchwork under the hood is we 
will be given--we will have the opportunity actually to even 
potentially look at this as a managed service.
    And so we are going to be looking--we are going to have 
sort of a decision date this spring of where we are with the 
decommissioning effort, what our options are in the external 
market, what our options are within if we go the in-house 
development. I think because of the work that we are doing and 
the work under the hood with BDN, we are actually going to have 
a lot more options from an IT perspective of different ways 
that we could solve this problem.
    Mr. Rutherford. Very good. And I want to ask Mr. Hubbard 
and Mrs. Moakler about, you know, the fact that educational 
services, the oversight falls within VA benefits, and there has 
been some discussion about some unique problems that that 
creates.
    And, Mr. Thrower, before they comment, do you see that as 
an issue for IT that the oversight is under benefits as opposed 
to education services? I mean, you work across different chains 
of command anyway within VA, I am sure.
    Mr. Thrower. I actually think it is a really good fit 
within benefits, in fact, because of many of the other--at 
least from an IT perspective, I look at many of the 
capabilities we have delivered over the last few years have 
been able to--have created certain services that are allowing 
us to integrate capabilities across the Department.
    The fact that we now, for instance, have an electronic e-
folder that consolidates and has in one place things like birth 
certificates, marriage certificates, other critical documents, 
that is now being--that can be used by education benefits or--
--
    Mr. Rutherford. Different----
    Mr. Thrower. --many of the other areas. This has been a 
great benefit to us and is creating a lot of flexibility we 
otherwise didn't have.
    Mr. Rutherford. Okay, I am just about out of time.
    Mr. Hubbard and Mrs. Moakler--Mr. Chairman, if they could 
just briefly----
    Mr. Bilirakis. Yes.
    Mr. Rutherford. --answer--is that a problem for you? And, 
Mrs. Moakler, I think you actually mentioned a legislative 
issue that could help with some of this oversight; was that 
correct?
    Mrs. Moakler. Yes, but that was pertaining to the delay of 
payment of the VA benefits to the colleges, who weren't 
allowing the students to take advantage of re-registering for 
the next semester or----
    Mr. Rutherford. Just with that certificate?
    Mrs. Moakler. Yes.
    Mr. Rutherford. Yes, okay.
    Mr. Hubbard?
    Mr. Hubbard. I think it is an excellent question, Mr. 
Rutherford, and thank you for addressing it, because I am 
actually going to disagree a little bit with my colleagues from 
VA on this one.
    I have seen long-term the focus on outcomes is lost when 
economic opportunity as an office is buried within benefits. I 
believe there is an opportunity to perhaps elevate that office 
as an issue area and provide some potentially preventative 
medicine. We know that individuals who have a Bachelor's degree 
or higher oftentimes have great success in life; we would like 
to see more of that. And, unfortunately, I think the IT debate 
highlights the fact that there is some perhaps disinterest 
within the larger organization, not out of any particular 
spite, but more by the fact that it is a huge organization of 
more than 360,000 employees and, when you are talking about a 
small subset of that, it is difficult to get the right 
attention. I believe that there is definitely opportunity to 
elevate that office.
    Mr. Rutherford. And I agree with your focus on outcomes.
    Thank you, Mr. Chairman. I yield back.
    Mr. Arrington. No problem. I will recognize Mr. Correa for 
5 minutes.
    Mr. Correa. Thank you very much, Mr. Chairman. I just want 
to thank the panel for being here. Very difficult issues, but I 
appreciate you being forthright and honest about the challenges 
that we have in front of us.
    I am not going to get mad. I am not going to get angry over 
the fact that we have these letters going out with these 
mistakes causing confusion out there with the veterans. 
Fourteen thousand approved institutions where veterans can get 
their education services and as Mr. Hubbard said, we are not 
focused on outcomes.
    Just a couple of days ago, I was talking to a gentleman 
that said, you know, Lou, you have a lot of these openings in 
California for this huge construction project that we have got 
coming online. We don't have the skill to train individuals, 
building trades, the electricians, the specialists. We have got 
the president talking about a trillion-dollar infrastructure 
project coming online here early January, February, or at least 
they initially start to discuss these projects. And, again, we 
have got 14,000 institutions, I am wondering how many of those 
are going to prepare our veterans for a good education.
    Where do we go from here? It looks like we have challenges 
in terms of turning this very complex agency department quickly 
to address these issues on a timely basis. A question to all of 
you is we thought about possibly employing social media to let 
veterans know what the real information out there is, what they 
factually are.
    General *Worley.* Thank you, Congressman.
    We have leveraged social media in a huge way with respect 
to getting the word out. We have a Web site, as I mentioned in 
my testimony. We have web pages dedicated to all the Colmery 
Act provisions with links, for example, to the application if 
you are a school closure--impacted by a school closure. We put 
things on Facebook pretty much daily emphasizing certain 
aspects, especially----
    Mr. Correa. And what is the outcome then of, you know, I 
have a daughter that is 17. I have got kids in their early 20s 
and Facebook is where they live--not on web pages, but 
Facebook.
    General *Worley.* Facebook.
    Mr. Correa. Have you gotten good response? And I am 
thinking to myself, as you are trying to put out the good 
information on Facebook, accurate information, you are sending 
out letters that are inaccurate.
    Creation will be of confusion out there if somebody sees an 
official letter from your department versus something on 
Facebook, maybe we ought to stop sending out those inaccurate 
letters and focus on social media, getting out the right 
information.
    General *Worley.* And that is what we are doing. The 
Facebook dialogue is continuous. And if you would like some of 
the feedback about that, some of it is disgruntlement, quite 
frankly, with the fact that, you know, the forever part only 
starts 1 January of 2013. People that became eligible or were 
discharged prior to that, in some cases, you know, have 
concerns about that.
    So, there is ongoing dialogue of various concerns. We are 
trying to push out the information correctly. We are fixing the 
letter problem. The C of E's, the initial letters will be fixed 
this month and at least within a couple of months, we will have 
the logic fixed for the award letters. Thank you.
    Mr. Hubbard, I am running out of time, but Mr. Hubbard, I 
just wanted to ask you to, and the rest of the panel to, engage 
with us, with my office, with the others here and try to figure 
out how to focus on outcomes, because, you know, this is not a 
new problem. We have heard this over and over again when I was 
in the state legislature in California. You are not training 
our students for the right job openings and so how can we get 
to that point where we are training veterans for, you know, 50-
, 60-, 70-, $80,000-a-year jobs when they come back stateside.
    It is not rocket science. It is essentially putting one 
opportunity in front of these veterans and making sure they are 
ready to seize that opportunity. Whatever suggestions you have, 
please; we are here to listen, sir.
    Mr. Hubbard. Well, and thank you for that, Mr. Correa. I 
think it is a great point.
    We find that student veterans are making good decisions as 
it pertains to their career paths when they have the right 
information. If they are informed consumers and they know what 
they are looking for and they see the long-term solution to it, 
it is an easy decision.
    Unfortunately, in a lot of cases, they are not getting the 
right information and so that is why we are making such a 
strong push to make sure that they get that.
    Mr. Correa. I guess my question is--I have got six 
seconds--is, why aren't they getting the right information and 
how can we get them the right information?
    Mr. Hubbard. Another very, very good point. And I think it 
points to the fact that the Transition Assistance Program on 
the DoD side of the House is, perhaps, worth taking a look at, 
as well.
    Mr. Correa. Mr. Chairman, I yield.
    Mr. Arrington. I agree with that.
    Mr. Banks, you are recognized for 5 minutes.
    Mr. Banks. Thank you, Mr. Chairman.
    General, great to have you back to the Committee once 
again. Back in March, with the help of this Subcommittee, I 
introduced the Veterans Success on Campus Act of 2017, which 
would make a pilot program a permanent program. It was rolled 
into the Forever GI Bill package, which we were very proud of.
    And I wondered if you could give us an update today on--
maybe elaborate on the progress that the VA has made with the 
program now that it is permanent. Have you seen more veterans 
using it? I know it has only been a short period of time, but 
have you started expanding the number of campuses? Can you give 
us an overall update on how that is going?
    General *Worley.* Thank you. As you know, Congressman, that 
is--the VR&E is a separate office from me, but I can tell you 
that from what I understand now, the Colmery Act codifies, as 
you have pointed out, the Veterans Success on Campus is a 
highly successful program. I believe it is at--serving about 
90-some--over 90 campuses.
    My understanding at this point is we don't have plans for 
expanding the program this year. Beyond that, I would have to 
take back any further status for the record.
    Mr. Banks. Can you elaborate on the lack of planning for 
expansion, as it was clearly a priority in the bill.
    General *Worley.* We understand that, sir. I would have to 
take that for the record and have the VR&E folks respond to 
that for you.
    Mr. Banks. We would appreciate some feedback on that in the 
future. Appreciate that.
    Could you also give us--provide some more information on 
the performance of the VA Education Call Center in Oklahoma and 
what type of training they are receiving on the legislative 
changes that were enacted in the Forever GI Bill.
    General *Worley.* They have received training on this from 
the beginning, fact sheets and so forth, in order to be able to 
respond appropriately. As you know, that is a big lift with 31 
education provisions as part of it, some of them quite 
complicated. And so we are--not only have rolled out the 
scripts and those kinds of things for them to use, but then 
continuing to evaluate and improve them as we go along.
    Mr. Banks. Okay. That is all I got. Thank you very much.
    Mr. Arrington. Thank you. Mrs. Rice, you are recognized for 
5 minutes.
    Ms. Rice. Thank you, Mr. Chairman.
    So, if I can just say, it is not the fault of anyone here 
on the panel, but this is why people have no faith in 
government. You pass a historic bill like this and the agency 
that is charged with implementing it doesn't have the tools it 
needs to implement it and it is just insane. I mean, I just 
don't understand that. I can't change something like taking out 
a 15-year provision.
    And I just--it is so disappointing that--maybe this is 
something that we have to address with Secretary Shulkin, that 
we have to do more to help him.
    Can anyone--excuse my ignorance, but how long have you been 
implementing it, over what period?
    General *Worley.* The law was signed on August 16th of 
2017, so we are about four months into the effort and----
    Ms. Rice. Have you seen any increase in people applying, 
understanding that there--they actually can apply now, thinking 
that maybe before they couldn't or is it too early to calculate 
that?
    General *Worley.* Well, I guess it depends on which 
population you are talking about. Some of it is just 
information to get out, specifically, with respect to the--no 
longer having a delimiting date for those that exit service 
after 1 January 2013. Some of them are very targeted, as I 
mentioned. There are two provisions within the school closure 
piece; one of it is retroactive back to January 2015 so that we 
can try to make whole, to some degree, those who were affected 
by school closure, the ITTs and Corinthians, as we mentioned 
earlier.
    And we have put out communication to them. We developed the 
application and put out the application and we are receiving 
those and processing those requests as we speak. And as I 
mentioned, we have already restored, I think it was 1800 or so 
months of entitlement to people.
    So that--several of the provisions, I mean, we are moving 
out and getting the ones that are near term, taken care of. 
Many of the provision are not affected until--effective until 1 
August of 2018. So, it kind of depends.
    And there are others that are targeted, such as the Purple 
Heart recipients and those kinds of things, and the Fry 
Scholarship. So we have pushed out communication, especially on 
the near-term pieces to try to inform people as quickly as 
possible that they may be impacted by a particular set--
provision or set of provisions.
    And as was mentioned, we have armed-up the call center and 
we are putting it out on all of our social media and those 
types of things. So, we are trying to get the word out.
    Ms. Rice. Just one question. One part of the bill required 
the VA to provide educational and vocational counseling 
services for certain individuals at locations on institutions 
of higher learning campuses, as selected by the VA. Next to 
this on the sheet that we have, it says ``no action needed.'' 
So, you find that the counseling is sufficient or maybe I am 
not understanding that?
    General *Worley.* You may be referring to the provision 
Congressman Banks was mentioning about VSOC, codifying the 
VSOC, Veterans Success on Campus, counselors. So, those--that, 
again, at this point, I am not aware of any plans this fiscal 
year for expanding the VSOC counselors on campus, but I will 
take that and back----
    Ms. Rice. But, did--is that one of the things that you said 
that you recently spoke to Secretary Shulkin about the things 
that you would need to implement this bill. Is that one of 
them?
    General *Worley.* No, ma'am. The specific provisions I was 
briefing Secretary Shulkin on had--were all the education, the 
ones that fall within my office, the education service-related 
ones; 31 of the 34 provisions in the law are being implemented 
by my office. There are three provisions that have to do with 
VR&E, and that is one of them. So----
    Ms. Rice. So, who is responsible for implementing that?
    General *Worley.* There is a counterpart colleague of mine, 
Mr. Jack Kammerer, who is the director of VR&E for the VA.
    Ms. Rice. So no one here can answer that?
    General *Worley.* I will have to take that back.
    Ms. Rice. Okay. Thank you.
    General *Worley.* Yes, ma'am.
    Mr. *Bilirakis. [Presiding.] Thank you. I talked to the 
Ranking Member and he agrees we should have a second round. If 
you guys are okay with that, we want to proceed.
    So, I want to thank you again for being here and then 
providing the benefits for our heroes. What they have earned 
and deserved has always been my top priority in the United 
States Congress.
    With that, I want to ask the general, I think that it is so 
very important--and I think all of us agree on this--for us and 
those watching at home to hear how the improvements we made in 
the Veterans Education Assistance Act of 2017 are being 
implemented. Again, Ms. Rice alluded to that and the status of 
these reforms.
    So, my first question is related to my bill, the Veteran 
Act, which was incorporated into the overall bill that was 
signed into law in August. My provision would provide the VA 
necessary funding and resources to update its information-
technology systems, to improve the timeliness and accuracy for 
processing of claims for educational benefits. My provision 
directed the VA to submit within 180 after the enactment of 
this act, a plan to implement such improvements.
    So, my question is, can you discuss what efforts, General, 
thus far, have been made in this effort? Are there initial 
hurdles or barricades to get this section implemented, 
specifically this section? Is the VA on track to submit this 
plan to Congress with the timeframe, the 180-day timeframe of 
enactment? If you could answer that, I would appreciate that.
    General *Worley.* Mr. Chairman, that is one of many of the 
provisions that I mentioned that, obviously, require IT effort 
that will happen in the future and I will defer to my 
colleague, Mr. Thrower from the Office of IT if that is okay.
    Mr. Thrower. You know, in terms of how, you know, planning 
all of that, what we are doing to automate systems across the 
board, we have been analyzing the provisions of this act and 
looking at the status of all systems within the education realm 
that we manage. We have been building a plan to show the 
transition that we are looking at over the next few years and 
we are on track to provide you that report in, I believe, this 
February.
    Mr. Bilirakis. This February?
    Mr. Thrower. Is that the 180 days? I believe it is.
    Mr. Bilirakis. Within the 180 days? It is pretty close. I 
would say I think it is within the 180 days. Okay. Well, we are 
going to hold you to that.
    Let me go ahead and get on to the next question. Can you 
explain why the VBA, again, the general, VBA Education Services 
needed to hire 200-plus additional temporary workers to 
manually process claims because the IT system are not able to 
automatically process the claims?
    General *Worley.* Yes, Mr. Chairman.
    And there are probably two or three categories. So, I 
mentioned in my oral testimony, specialized teams. So, there 
are certain aspects of the Colmery Act that cannot be processed 
within in the current automation without huge, huge changes. 
And I would point out the STEM Scholarship is one of those 
provisions because it is not just nine additional months of 
benefits; there are parameters associated with the STEM 
Scholarship with respect to who is eligible, how much of a 
program you have completed--it is a program of greater than 128 
hours--and you can only go up to $30,000 per individual.
    So, there are many parameters that are, what we would say, 
outside of the system, for processing those claims. We need 
probably around 40 to 50 people as a team, is our estimate 
right now, just to process who we think would be eligible under 
that STEM Scholarship program.
    Another one has to do with, in the more near term, is the 
School Closures Act. We are trying to hire 27 people right now 
and we have got--we are in the hiring process as we speak to 
work the school closures pieces of that. These claims that are 
coming in are essentially manually processed. As we get the 
applications, they have evaluated by people, by our claims 
examiners, our more experienced claims examiners and processed 
and put into the system through those means.
    So, there are two or three specialized teams that we have 
to put together that consist or makes up a fairly significant 
part of that 200 and then the rest of that 200 will be put at 
our regional processing offices as augmentation to the claims 
examiners that are there today in order to provide the manual 
workarounds that we have to do until the IT comes onboard. So, 
it is just additional people-power, if you will, so that we can 
try to maintain the timeliness that we have today and not get 
into delay situations that you may have heard about.
    Mr. Bilirakis. So, when we implement the IT portion, which 
is the Veterans Act, my bill, you think we will see 
improvements?
    General *Worley.* Absolutely.
    Mr. Bilirakis. Okay.
    General *Worley.* Because you are talking about automating 
original claims process. Absolutely.
    Mr. Bilirakis. All right. Very good.
    I will yield to the Ranking Member, Mr. O'Rourke, for 5 
minutes.
    Mr. *O'Rourke.* Thank you, Mr. Chairman.
    And I have a few questions for General Worley. Before I do, 
this will be my last opportunity to do this, because he is 
moving on to the next stage in his career, but as with many of 
the Members of Congress, I have the benefit of being able to 
work with a military fellow who comes to our office for a year 
and helps us to better understand the issues on this Committee, 
on the other Committee on which I serve, House Member Services.
    Captain Mark Walden has just been a pleasure to work with 
and gives me a lot of faith and confidence in the quality of 
Americans that we are recruiting and who enlist and we just 
wish you much luck in these next steps in your career and it 
adds a little bit to the urgency that we have in this job and 
our responsibility to make sure that we are following through 
on our commitments and our obligations here. So, I just wanted 
to publicly acknowledge your service and thank you for working 
with us this year.
    General Worley, when you were asked by Mr. Correa about 
outreach on social media, you had earlier given us the stat 
about 8,000 beneficiaries that you are trying to reach out to 
that have been subject to these school closures and we want to 
make sure that we are connection them with the resources that 
they need to finish their academic studies.
    You said 200 or so have been helped so far. What does that 
tell you on this issue and on the issue about having to wait 
another three months to correct the 15-year delimiting 
statement? Help me understand your urgencies around these 
issues and whether you see this as a problem, if this is what 
you expected, and that might go so ways towards setting our 
expectations on the Committee. It seems like a low number to 
me; if there are 8,000 and only 200 have been helped.
    General *Worley.* I would just respond to that by saying 
the initial notice went out on November 9th, so we are, what, 
five weeks into the process in terms of--and, again, that 
doesn't mean that is the first communication; we have been 
trying to flood the pipes with communications across the board 
on all of these provisions, especially the near-term ones--but 
I think it is--quite frankly, I think it is too early to tell 
whether that is a low number or a high number. We will continue 
to, of course, you know, take these in, process them as quickly 
as we can and if we need more communication or need to reach 
out to the 7,000--whoever hasn't responded yet, we will do 
that.
    I don't know that it is realistic to expect that we will 
get 8,000 applications because, quite frankly, the hope is that 
the information that is out there would be sufficient for 
people to look at it and make their own choice, whether they 
think they are eligible or not. And we always encourage people 
to submit a claim if there is any question as to their 
eligibility. But--especially, with respect to this school 
closure.
    If you have transferred credits to a comparable program, 
then you are not eligible for restoral of your benefit between 
January 2015 and the implementation of the Colmery Act.
    So, we are happy to make that decision once you have given 
us the information on the application and inform you of that, 
but there may be people that understand that and just don't 
apply.
    Mr. *O'Rourke.* We are, God-willing, all going to be here a 
year from today, still in these same positions. What will we be 
likely talking about at that point if the Chairman decides to 
hold a hearing on this Forever GI Bill one year after the last 
hearing? Are we resolved on all these open issues? Do you have 
confidence that the 22 of 34 IT modifications will have been 
completed, the $70 million that you need to do this effectively 
spent, at least, for that part that has been budgeted?
    What do you think we can anticipate a year from now?
    General *Worley.* I would love, in a year from now, to 
certainly have all the letter issues squared away. I don't 
think--what I hope to say in a year--and Mr. Thrower can back 
me up on this--that we have done the work to get off the 
benefits delivery network--the 50-year-old benefits delivery 
network as a platform for paying and doing a number of other 
things with respect to education benefits, that Sections 107 
and 501 are fully and purely and perfectly implemented.
    We won't, in a year, be able to say that all the rest of 
those IT requirements are met, so I hope to be saying in a year 
that we have those funded and in a timeline that OIT is working 
through over the following year, but I will let Mr. Thrower 
comment on that.
    Mr. Thrower. I think that is a pretty accurate statement. I 
think, you know, as I say, we are looking--we have been 
balancing priorities here. We started an effort before this Act 
was enacted to eliminate a major legacy problem within our 
environment. And so when this Act was--and, in fact, education 
services is the number one priority within OIT, as relates to 
the Veterans Benefits Administration in uplifting services.
    Dealing with that legacy issue will provide us a great deal 
of agility to be able to make that kind of quick changes you 
are talking about long-term; we are trying to fix that. That 
will largely be done at the end of this fiscal year.
    In the meantime, you know, what we will have published is 
we--and working together with General Worley and the education 
team, we identified those critical things that we absolutely 
had to do within an IT solution now----
    Mr. *O'Rourke.* Yeah.
    Mr. Thrower. --in order to make this work. And so we have 
integrated that within the same program that is doing the 
decommissioning work, which is a balance that we have to make 
to be able to do that.
    We are looking very hard at managed-services solutions 
versus in-house development solutions. I will say that, you 
know, we are hoping that, say, October 1 of next year, we will 
have--well, next spring we will make a decision of which 
direction we wish to go. We will be in the throes of 
implementation of all of the other provisions a year from now, 
down the path that we will have determined in the spring and 
probably execute in the beginning of October.
    Mr. *O'Rourke.* I appreciate that and thanks in advance for 
all the work that you are going to do on all that.
    You know, I, for one, don't have the subject-matter 
expertise on all this, including the IT fix and other parts of 
the IT problems, and I just know from past experience that GAO 
has been so helpful to me in understanding and kind of 
providing a check and a third-party scrutiny on the commitments 
and the performance and I hope that we can get some help from 
GAO. Not in any way to say that I have a lack of confidence, 
because I don't--you all have been very helpful and very 
professional in implementing this--I just think given the group 
of veterans that we are talking about and the necessity of 
implementing this successfully, I just want to make sure that 
we have, you know, the greatest oversight possible that will 
help us to do our job.
    Thank you, Mr. Chairman, for letting me go over my time.
    Mr. Bilirakis. Oh, absolutely.
    I understand the doctor doesn't have any questions; is that 
right?
    Okay. Then we will move to Mr. Correa; you are recognized 
for 5 minutes--no questions? Okay.
    I have one question and then I am going to ask the Ranking 
Member if he wanted to make any more comments. The question is 
for Ms. Moakler. In your testimony, you described a situation 
where some students are demanding payment--the schools are 
demanding payment of tuition and fees and the VA has delayed in 
the payments, what have you. What can be done to address this 
issue so that students are not negatively impacted by school 
and VA delays?
    Ms. Moakler. Well, what we are asking for are the 
protections for those receiving VA benefits that are already 
out there for those who are receiving Title IV benefits. So, if 
a Pell Grant payment is late, the student is not penalized. 
They can still go on. They can register for another semester of 
classes or what have you, because whatever certificate of 
eligibility they get for their Pell Grant is held as a receipt 
of payment, as it were.
    But with the VA, many schools do not look at that 
certificate of eligibility as a payment. They want the payment 
in hand, and so that causes a hardship for my students.
    Mr. Bilirakis. Yes, so, give me an example of the hardship, 
because this is unbelievable. It is unacceptable that they----
    Ms. Moakler. Because the----
    Mr. Bilirakis. Tell me what is the penalty in a lot of 
cases.
    Ms. Moakler. The student--the institution of higher 
learning will start dunning the student for payment and ask 
them to take out a loan to cover that period between when the 
university required the payment and when the VA makes the 
payment.
    Mr. Bilirakis. Yeah.
    Ms. Moakler. And so, then, the student is stuck with 
those--that loan.
    Mr. Bilirakis. And they have that added stress----
    Ms. Moakler. They do.
    Mr. Bilirakis. --which they should not have.
    Ms. Moakler. They do.
    Mr. Bilirakis. So, that is the real-life scenario and we 
have got to do something about that. So, I appreciate you 
answering the question.
    Well, I want to ask the Ranking Member if he had any 
comments, otherwise----
    Mr. *O'Rourke.* Mr. Chairman, I don't. Thank you for 
helping to hold the hearing today and thank you all for 
testifying and for answering all our questions.
    Mr. Bilirakis. Okay. If there are no other questions--
anyone have any other questions? If there are no other 
questions, I want to thank the witnesses for their testimony, 
for answering all the questions.
    We all understand the importance that the passage of this 
Forever GI Bill will have for future generations of veterans to 
come. We really did great work in this Committee and I thank 
the Chairman, the full-committee Chairman, as well, which is 
why it is so vital, again, it is so vital that we get 
implementation right the first time, as Ms. Rice said.
    We will continue to work with the VA and receive regular 
updates on how the process is moving along. I ask you, General 
Worley and your staff to not hesitate, to let us know if you 
are lacking the resources that you need to get this right.
    And we will also continue to work with the veterans, the 
groups like SVA and TAPS and rely on you. Please, we are 
relying on you to keep your ears on the ground and keep us 
abreast with any concerns you are hearing from the membership 
and as you work with VA in the coming months and years.
    I would ask unanimous consent that all Members have 5 
legislative days to revise and extend their remarks and include 
extraneous material. Without objection, so ordered.
    Finally, I would like to publicly congratulate Mr. Hubbard 
on his promotion to the rank of staff sergeant in United States 
Marine Corps Reserves. Congratulations, sir.
    Thank you, Mr. Hubbard, for your continued service to our 
country and semper fi.
    This hearing is now adjourned. Thank you. I need the 
gavel--oh, here it is--thank you very much, appreciate it.

    [Whereupon, at 3:15 p.m., the Subcommittee was adjourned.]



 
                            A P P E N D I X

                              ----------                              

               Prepared Statement of Robert M. Worley II
    Good morning, Mr. Chairman, Ranking Member O'Rourke, and other 
Members of the Subcommittee. I am Robert Worley, Director of Education 
Service, and I am pleased to be here with you today to discuss the 
implementation of the Harry W. Colmery Veterans Educational Assistance 
Act of 2017 (Colmery Act), or as it's more commonly referred to, the 
Forever GI Bill. Accompanying me today are Mr. Lloyd Thrower, Office of 
Information & Technology (OI&T), Account Manager, Benefits Portfolio, 
and Mrs. Charmain Bogue, Deputy Director, Education Service, Veterans 
Benefits Administration (VBA).

Colmery Act

    On August 16, 2017, the President signed into law the Colmery Act 
(Public Law 115-48), which includes the most comprehensive changes to 
GI Bill benefits since enactment of the Post 9/11 Veterans Educational 
Assistance Act (Post 9/11 GI Bill) in 2008. Specifically, the Colmery 
Act enhances access and availability to educational benefits for 
eligible Veterans through several technical adjustments, calls for 
investment in information technology (IT) systems, and fundamentally 
changes the way we view the GI Bill. The Colmery Act has become known 
as the Forever GI Bill because of its most recognized feature - the 
removal of the 15-year time limitation for Veterans who transitioned 
out of the military after January 1, 2013, and eligible dependents, to 
use their Post-9/11 GI Bill benefits. The law also restores benefits to 
Veterans impacted by school closures since 2015, and expands benefits 
for certain Reservists, surviving dependents, and Purple Heart 
recipients among other improvements.
    The importance and complexity of the Colmery Act led VA to 
establish a Program Executive Office (PEO) comprised of business-line 
managers, management analysts, individuals with program and project 
management experience, and contract support. The office is responsible 
for monitoring and coordinating all Forever GI Bill implementation 
activities. VA also awarded a 12-month Program Management contract in 
September to provide the PEO with expertise in IT, training, and 
communications.
    Twenty-two of the law's thirty-four provisions require significant 
changes to our IT systems. OI&T is committed to providing a solution to 
the most pressing of these - Sections 107 and 501 - which change the 
way VA pays monthly housing stipends by aligning payment to the 
location where students physically attend the majority of their classes 
and removing the one percent reduction exemption on GI Bill stipends.
    An IT solution for these sections is part of VA's commitment to 
continue automating the education claims process and delivering timely 
payments to Veterans and beneficiaries. The importance of this cannot 
be overstated - since fiscal year (FY) 2013, VA has processed an 
average of four million claims per year. In FY 2017, the average time 
to process all education claims was approximately 25 days for original 
claims and nine days for enrollment certifications.
    To support the additional claims VA anticipates as a result of the 
Colmery Act, and to assist with the standing up of new initiatives like 
the Edith Nourse Rogers STEM Scholarship, VA is establishing 
specialized teams with experienced claims processors and is 
reallocating more senior staff to account for increased workload. In 
addition, VA has begun hiring 200 temporary employees in the field who 
are expected to be on board by May 2018.

Date of Enactment Provisions

    VA has taken significant steps in the four months since the Colmery 
Act was enacted to implement thirteen provisions that were effective 
immediately, and has begun a multifaceted outreach campaign to 
highlight and promote the changes to Veterans and beneficiaries.
    In November, VA conducted extensive outreach through social and 
traditional media outlets. On November 19, VA held a Forever GI Bill 
Twitter Town Hall that reached over 170,000 users. VA has also been 
leveraging its GI Bill Facebook to share updates, highlighting the 
removal of the delimiting date for using Post 9/11 GI Bill benefits, 
its new authority to restore entitlement in the event of school 
closures, and the permanency of the work-study program. On the web, VA 
created a new site that is regularly updated with information, 
resources, and Frequently Asked Questions for provisions with the most 
immediate impact on Veterans and beneficiaries, such as the expansion 
of independent study programs.
    VA sent two mass e-mails to 1.2 million stakeholders emphasizing 
what changes have been made, and what further changes are coming as 
additional provisions, including those giving Purple Heart recipients 
full entitlement to the Post 9/11 GI Bill and extending the Yellow 
Ribbon Program to Purple Heart and Fry Scholarship recipients, go in 
effect on August 1, 2018. VA briefed stakeholders such as School 
Certifying Officials and representatives from Veterans Service 
Organizations on the Colmery Act and encouraged them to help VA get the 
word out about GI Bill enhancements. On November 29, VBA's Deputy Under 
Secretary for Economic Opportunity conducted interviews with 23 radio 
and TV stations reaching millions of viewers. By all accounts, the 
interviews were positive and well received. These interviews presented 
yet another opportunity to discuss the Colmery Act and its impact on 
Veterans and beneficiaries, and also encouraged all interested Veterans 
and dependents to contact VA for more information on Education 
benefits.
    VA had already started working on those provisions taking effect 
upon enactment, so that Veterans and beneficiaries could take advantage 
of the expanded benefits. VA also notified nearly 8,000 beneficiaries 
that they may be potentially eligible for restoration of entitlement 
under a Special Application provision. To date, VA has received and 
processed over 250 applications and restored entitlement to 192 
beneficiaries. VA is committed to restoring entitlement to all eligible 
Veterans and beneficiaries and encourages those who may be eligible to 
apply at www.benefits.va.gov/GIBILL/ForeverGIBill.asp.
    VA has started to notify nearly 3,200 Veterans, who lost their 
Reserve Educational Assistance Program (REAP) eligibility due to the 
program's sunset, that they now have the option to make an irrevocable 
election to have their eligible active duty service periods used to 
establish Post-9/11 GI Bill eligibility. Affected Veterans are 
receiving information and guidance on what the election means to their 
benefit entitlement and future use, and are given the option to have VA 
contact them if they need further assistance before making an election.
    The most notable and recognized change by the Colmery Act is the 
removal of the 15-year time limitation to use the GI Bill benefit. This 
is a powerful statement to millions of Veterans that education and 
training is the key to their economic future today and tomorrow. 
Recognizing this, VA OI&T is working closely with Education Service to 
review and update all outgoing letters and material that features a 
delimiting date, so that Veterans and beneficiaries are properly 
informed of the lifetime benefit.
    VA also performed a data analysis of Marine Gunnery Sergeant John 
David Fry Scholarship recipients, and found that three beneficiaries in 
FY 2017 and eight in FY 2018 would no longer see that entitlement 
expire as a result of the Colmery Act. VA contacted each of these 
individuals to explain the steps to continue to use this benefit.
    The provisions mentioned above were the most impactful to Veterans 
and beneficiaries, but numerous others also required immediate VA 
action. VA is still assessing the provision concerning the amount to 
provide State Approving Agencies (SAAs), and will support the GAO study 
on SAA funding and approvals. VA has also notified SAAs that they may 
authorize independent study programs at certain educational 
institutions that are not institutions of higher learning, like career 
and technical education schools.
    In November, VA announced 12 new members to its Veterans Advisory 
Committee on Education, to be chaired by former U.S. Senator James H. 
Webb and co-chaired by Jared Lyon, the President and Chief Executive 
Officer of Student Veterans of America. The Colmery Act extends the 
Committee's authority to FY 2022.
    VA is compiling and analyzing data on student progress and will 
soon deliver an implementation plan outlining IT system improvements to 
maximize the automation of educational claims processing.
    In order to provide information on whether schools offer priority 
enrollment to Veterans, Digital Services is partnering with Education 
Service to collect school data for display on the GI Bill Comparison 
Tool.
    VA's Compensation Service has also identified an initial group of 
Veterans that may now be eligible for disability compensation because 
of full-body exposure to nitrogen mustard gas or lewisite during World 
War II, and is establishing a work-group to process these claims.
    A few provisions of the Colmery Act align with policies and 
procedures already in place. Examples include codification of the 
VetSuccess on Campus program, allowing Veterans participating in the 
Vocational Rehabilitation and Employment program to extend eligibility 
if called to active duty in certain cases, and providing School 
Certifying Officials additional flexibility when a course start date 
does not align with that of an academic term.

Looking Ahead

    VA is working hard to successfully implement the Colmery Act in a 
prudent and timely manner, but a great deal of work remains with 18 of 
the 34 provisions. VA has already started revising regulations, 
articulating communications plans, and building operational models 
toward smooth and functional implementation.
    VA looks forward to continuing to work with Members of this 
Committee and the Congress on these efforts.
    Mr. Chairman, this concludes my statement. Thank you for the 
opportunity to testify before the Committee today. We look forward to 
responding to any questions from you and Members of the Committee.

                                 <F-dash>
                 Prepared Statement of William Hubbard
    Chairman Arrington, Ranking Member O'Rourke and Members of the 
Committee:
    Thank you for inviting Student Veterans of America (SVA) to submit 
our testimony on the modernization of the GI Bill and other pending 
legislation. With nearly 1,500 chapters representing over 1.1 million 
student veterans in schools across the country, we are pleased to share 
the perspective of those directly impacted by the subjects before this 
Committee.
    Established in 2008, SVA has grown to become a force and voice for 
the interests of veterans in higher education. With a myriad of 
programs supporting their success, rigorous research on ways to improve 
the landscape, and advocacy throughout the Nation, we place the student 
veteran at the top of our organizational pyramid. As the future leaders 
of this country, fostering the success of veterans in school is 
paramount in their preparation for productive and impactful lives 
following service in the military.
    Signed into law on August 16th, 2017, H.R. 3218-commonly known as 
the Forever GI Bill-made \1\history \2\. As one of the most significant 
pieces of higher education legislation to occur this century, millions 
of service-affiliated students will have greater access to education 
and training thanks to the efforts of this Committee and the 115th 
Congress. We would like to share some brief history and intent of the 
legislation from our perspective, which was truly a case-study in 
partnership and bipartisan discussion. In 2016, Student Veterans of 
America recognized the importance of sustainability in programs driven 
by outcomes, and fueled with data-driven decision-making.
---------------------------------------------------------------------------
    \1\ 115th Congress (2017). HR 3218, https://www.congress.gov/bill/
115th-congress/house-bill/3218
    \2\ Gross, Natalie (2017). Military Times. ``Trump signed the 
`Forever GI Bill.' Here are 11 things you should know'', https://
www.militarytimes.com/education-transition/education/2017/08/16/trump-
signed-the-forever-gi-bill-here-are-11-things-you-should-know/
---------------------------------------------------------------------------
    Last year, we saw that it was time to stop playing defense against 
budget threats on the GI Bill, and instead to protect it for all 
generations of veterans to come. We acknowledge that student veterans 
are among the most successful students in higher education today. Based 
on our research, the National Veteran Education Success Tracker (NVEST) 
\3\, we demonstrated that the investment our country is making in the 
education of veterans has an incredible impact on all service-
affiliated students, as well as the Nation's ability to maintain global 
leadership.
---------------------------------------------------------------------------
    \3\ Cate, C. A., Lyon, J. S., Schmeling, J., & Bogue, B. Y. (2017). 
National Veteran Education Success Tracker: A report on the academic 
success of student-veterans using the Post-9/11 GI Bill. Washington, 
D.C.
---------------------------------------------------------------------------
    The Forever GI Bill includes dozens of solution-oriented provisions 
such as work-study authorization; science, technology, engineering, and 
math (STEM) scholarships; removal of the time limit; and many others 
which increase access to education. The new law also addresses 
inequities of this earned benefit and looks forward to the future well 
beyond our own generation. We are proud to have played a part in 
advocating for its passage. We have entered a new era of education for 
veterans-one where we no longer consider the GI Bill as a ``cost of 
war'', but more powerfully a right of service.
    The bill was frequently referred to as one of the most bipartisan 
pieces of legislation ever to pass through congress, both in co-
sponsorship and votes, as well as formulation and negotiated text. We 
also must acknowledge a special thanks to the following organizations 
that composed the ``Tiger Team'' who worked closely with the Veterans 
Affairs Committees in making the passage of this bill a reality: 
Veterans of Foreign Wars, American Legion, Vietnam Veterans of America, 
Tragedy Assistance Program for Survivors, Got Your 6, and the Military 
Order of the Purple Heart.
    As leading advocates for the bill, we are committed to the complete 
and timely implementation of the law. With that interest in mind, we 
thank the Committee for this opportunity to highlight several key areas 
of success, as well as some areas with room for improvement. We applaud 
the Department of Veterans Affairs (VA) and their dedicated staff for 
demonstrating great initiative in implementing the Forever GI Bill, 
especially their very public communications effort to make those 
affected aware of upcoming opportunities.

    <bullet>  Prior Gaps in Access. There were several key components 
of the Forever GI Bill aimed at addressing critical gaps in education 
benefits for those who earned them, but were not eligible due to 
various bureaucratic nuances. Four populations were identified that 
required specific changes to address these gaps, including Purple Heart 
recipients, Fry Scholarship recipients, National Guard and reserve 
members with 12304b orders, and students of closed schools.

    We anticipate coordination between the Department of Defense (DoD) 
and VA on exchanging a database of Purple Heart recipients to be cross-
referenced with current GI Bill eligibility, with a targeted 
communications effort to follow. We maintain concern over the validity 
of the contact information for those affected, and encourage VA to work 
closely with the Military Order of the Purple Heart-also an original 
Tiger Team member-in messaging this new change \4\.
---------------------------------------------------------------------------
    \4\ Military Order of the Purple Hear, http://www.purpleheart.org/
Mission.aspx
---------------------------------------------------------------------------
    Two commonsense solutions in the law include affording Fry 
Scholarship recipients access the Yellow Ribbon Program and benefits 
eligibility for National Guard and reserve members who served under 
12340b orders. In both instances, a change to the IT rules may be 
necessary, though we anticipate some manual processing of these 
individual cases. We strongly encourage VA to consider automating these 
benefits to avoid any delays once the changes go into effect by August 
1, 2018.
    Until Forever GI Bill, student veterans attending schools with 
unexpected closures were the only students in higher education with no 
reasonable recourse to recoup their benefits. The most prolific 
examples included the closure of the Corinthian Colleges and ITT 
\5\Tech \6\. Unfortunately, thousands of student veterans were 
adversely affected due to the poor performance of these schools, and we 
applaud VA for producing an application for these students to apply for 
restoration of their benefits.
---------------------------------------------------------------------------
    \5\ Hefling, Kimberly. POLITICO, (2015). ``Vets snared in for-
profit college collapse want GI Bill money back''. https://
www.politico.com/story/2015/07/veterans-gi-bill-for-profit-colleges-
119697
    \6\ Absher, Jim. Military.Com (2016). ``ITT Tech Closes All 
Campuses, Affecting Nearly 7,000 Veterans''. https://www.military.com/
daily-news/2016/09/06/itt-tech-closes-all-campuses-affecting-nearly-
7000-veterans.html
---------------------------------------------------------------------------
    We are concerned that so few students have applied for the 
restoration of benefits under the school closure provision since the 
notice from VA went live to these students \7\. Similar to our concerns 
with reaching eligible Purple Heart recipients, the integrity of 
contact information within the VA system may not be reliable. We 
encourage VA to partner with external organizations such as Student 
Veterans of America and others to reach the widest audience possible.
---------------------------------------------------------------------------
    \7\ VA estimates that approximately 250 of the roughly 7,000 
potentially affected students have applied to have their benefits 
restored.

    <bullet>  Edith Norse Rogers STEM Scholarship. This provision 
originated from H.R. 5784 in the 113th congress, the GI Bill STEM 
Extension Act, a bipartisan bill co-sponsored by Rep. David McKinley 
(WV-1) and Rep. Dina Titus (NV-1). \8\ We were a proud partner in the 
formulation and advocacy of this effort, and are pleased to see it as a 
law. At present, the implementation of this provision is unknown, 
despite being one of the most high-profile provisions. Student veterans 
consistently cite this as a component of Forever GI Bill with which 
they have the greatest interest.
---------------------------------------------------------------------------
    \8\ 113th Congress (2014). H.R. 5784, https://www.congress.gov/
bill/113th-congress/house-bill/5784/cosponsors

    We encourage this Committee to pay special attention to the 
implementation of this provision, as it represents one of the most 
significant contiguous investment of resources in the new law. 
Additionally, the long-term return on investment of this provision has 
the potential to impact our country's overall national security 
posture, with STEM-educated professionals needed now more than ever. 
\9\
---------------------------------------------------------------------------
    \9\ Coleman, Kevin. C4ISRnet (2017), ``Is the STEM shortage a 
national security issue?''. https://www.c4isrnet.com/opinion/the-
compass/net-defense-blogs/2017/04/17/is-the-stem-shortage-a-national-
security-issue/

    <bullet>  Modernizing Through Innovation. We worked closely with 
House Majority Leader, Rep. Kevin McCarthy (CA-23) and his office to 
support the inclusion of this provision. Today, higher education as an 
industry is not reacting to the changes in modern technology, and 
adapting to a new generation of students which are a majority non-
traditional learners. Some sectors of the industry have adapted quicker 
---------------------------------------------------------------------------
than others, while many schools lag behind.

    This provision represents a recognition that innovation in higher 
education must be in concert with new technologies, and with a focus on 
the future economy. We anticipate VA publishing a solicitation for bids 
to contract the education providers afforded under this provision. We 
offer our support to VA on the development of criteria to determine the 
selection of those contractors, noting the potential for bad actors to 
have a high interest in participating in this program. We encourage VA 
to identify rigorous standards that prevent poor quality providers from 
participating.

    <bullet>  One GI Bill for All Generations. When we first conceived 
of the idea of one GI Bill for all future generations of veterans, we 
did it with the intent of protecting the long-term viability of the 
program. We heavily encourage this Committee and congress to make data-
driven decisions based on the return on investment of all government 
programs. From the original implementation of the Post-9/11 GI Bill to-
date, student veterans have demonstrated that they are some of the most 
high-performing students in higher education today, highlighted by 
their record 72% success rate. \10\
---------------------------------------------------------------------------
    \10\ Cate, C. A., Lyon, J. S., Schmeling, J., & Bogue, B. Y. 
(2017). National Veteran Education Success Tracker: A report on the 
academic success of student-veterans using the Post-9/11 GI Bill. 
Washington, D.C.

    One of the first organizations we approached with the concept of 
the Forever GI Bill was Vietnam Veterans of America, who's core motto, 
``Never again will one generation of veterans abandon another'' 
resonating strongly with us. \11\ We believe the removal of the 15-year 
limit helps to secure this benefit for future generations, and 
encourage VA to require all outgoing Certificates of Eligibility (CoE) 
to reflect the removal of the delimiting date. No veteran should 
receive a certificate with a time limit on their benefits if they are 
eligible for the ``Forever'' provision.
---------------------------------------------------------------------------
    \11\ Vietnam Veterans of America, https://vva.org/who-we-are/about-
us-history/

    <bullet>  Overall Implementation Concerns. As the Forever GI Bill 
was being developed, it became increasingly clear that implementation 
costs, particularly IT changes and upgrades, would be a significant 
driver of cost. We applaud Rep. Gus Bilirakis for proposing the 
inclusion of a $30 million authorization for VA to make the necessary 
changes. \12\ More recent estimates for the full implementation of the 
law are approximately $70 million \13\. We have major concerns on 
whether or not the offices implementing this law are receiving adequate 
resources to execute this overhaul.
---------------------------------------------------------------------------
    \12\ 115th Congress (2017). H.R. 1994, https://www.congress.gov/
bill/115th-congress/house-bill/1994
    \13\ Estimated total cost of implementation based on discussions 
with senior VA officials.

    As a function of VA's structure, the IT budget is a single 
consolidated resource, often leaving comparatively smaller programs 
without the resources needed to serve their customers as effectively as 
they desire. This highlights a long-standing challenge in maintaining 
the Office of Economic Opportunity under the Veterans Benefits 
Administration, and is worth consideration for an Under Secretary-level 
representation within VA. Our major interest is in avoiding processing 
and payment delays similar to those that occurred in 2009, and we look 
forward to working with VA and this Committee on supporting timely 
---------------------------------------------------------------------------
implementation of this law.

    The Forever GI Bill represents a significant shift in education for 
veterans, and in higher education in general. More important than 
inputs and outputs are outcomes-that is more apparent today than ever; 
the GI Bill is an American success story because it has demonstrated 
results. As President Thomas Jefferson said in 1808, ``The same 
prudence which in private life would forbid our paying our own money 
for unexplained projects, forbids it in the dispensation of the public 
moneys.'' \14\
---------------------------------------------------------------------------
    \14\ Washington, Henry. (1859) Joint Committee of Congress on the 
Library, ``The Writings of Thomas Jefferson: Correspondence''. Pg 301, 
https://play.google.com/books/
reader?printsec=frontcover&output=reader&id=RixNn3jbISYC&pg=GBS.PR1
---------------------------------------------------------------------------
    In some instances, such as the high cost of low quality flight 
schools, those outcomes have come into question. \15\ While many flight 
schools deliver high quality programs, several predatory programs have 
used the contract loophole to exploit veterans for their GI Bill 
tuition. With the implementation of Forever GI Bill, we raise the 
question, ``who should be allowed to play in GI Bill land?''; consider 
the precedent of the VA home loan program-many banks do not qualify for 
these loans due to the rigorous and strict standards, leading to 
outcomes impressive by any standard.
---------------------------------------------------------------------------
    \15\ Haress, Chris. (2016), International Business Times. http://
www.ibtimes.com/gi-bill-flight-school-benefits-could-be-slashed-
congress-amid-tuition-loophole-2294612
---------------------------------------------------------------------------
    Furthermore, there have been schools with poor outcomes declared 
unapproved by State Approving Agencies such as Ashford University. \16\ 
The measure of whether or not schools should be allowed to participate 
in this GI Bill of the future should be outcomes. Student veterans view 
approval for VA funding as a declaration of academic quality, which it 
presently is not. We respectfully request that this Committee host an 
informal roundtable discussion on several of these topics identified in 
this testimony early in 2018. We would hope to address several of our 
concerns in greater detail, with the opportunity to further research 
some of the topics identified in this hearing.
---------------------------------------------------------------------------
    \16\ Halperin, David. (2017), HuffPost. ``Bridgepoint SEC Filing 
Raises Questions About Continued Federal Funding''. https://
www.huffingtonpost.com/entry/bridgepoint-sec-filing-raises-questions-
about-continued--us--5a0b3a78e4b06d8966cf3318
---------------------------------------------------------------------------
    We thank the Chairman, Ranking Member, and the Committee members 
for your time, attention, and devotion to the cause of veterans in 
higher education. As always, we welcome your feedback and questions, 
and we look forward to continuing to work with this Committee, the 
House Veterans' Affairs Committee, and the entire congress to ensure 
the success of all generations of veterans through education.

                                 <F-dash>
                     Prepared Statement of Moakler
Tragedy Assistance Program for Survivors

    The Tragedy Assistance Program for Survivors (TAPS) is the national 
nonprofit organization providing compassionate care for the families of 
America's fallen military heroes. TAPS provides peer-based emotional 
support, grief and trauma resources, grief seminars and retreats for 
adults, Good Grief Camps for children, casework assistance, connections 
to community-based care, online and in-person support groups and a 24/7 
resource and information helpline for all who have been affected by a 
death in the Armed Force. Services are provided free of charge.
    TAPS was founded in 1994 by Bonnie Carroll following the death of 
her husband in a military plane crash in Alaska in 1992. Since then, 
TAPS has offered comfort and care to more than 70,000 bereaved 
surviving family members. For more information, please visit 
www.TAPS.org.
    TAPS currently receives no government grants or funding.

Kathleen Moakler

    Kathleen joined TAPS in 2015 and is honored to work with America's 
frontline resource offering compassionate care for all those grieving a 
death in the Armed Forces. She works with policy makers as well as 
military and veteran advocacy organizations to ensure that surviving 
families' benefits and support services are protected and surviving 
families receive the most up-to-date information on any changes to 
their benefits. Kathleen comes to TAPS with 20 years of military family 
advocacy experience including protecting and enhancing surviving 
military family benefits, serving as past co-chair of the Survivor 
Program Committee for the Military Coalition, sitting on the DoD/VA 
Survivors Forum, and testifying numerous times before Congress on 
behalf of surviving military families. She also represented military 
families on the Congressionally-mandated Department of Defense (DoD) 
Military Family Readiness Council.
    An active duty and retired Army spouse for over 40 years, she holds 
a Bachelor of Science degree in Business Administration from the State 
University of New York at Albany. Mrs. Moakler was honored to receive 
the Gold Star Wives of America 2015 Award of Excellence. Parents of 
three adult children and grandparents to two military kids, Kathleen 
and her husband, Colonel Martin W. Moakler Jr. USA (retired), reside in 
Alexandria, Virginia.
    Chairman Arrington, Ranking Member O'Rourke and distinguished 
members of the Economic Opportunity Subcommittee of the House Veterans' 
Affairs Committee, the Tragedy Assistance Program for Survivors (TAPS) 
thanks you for the opportunity to make you aware of issues and concerns 
of importance to the families we serve, the families of the fallen.
    While the mission of TAPS is to offer comfort and support for 
surviving families, we are also committed to improving support provided 
by the Federal government through the Department of Defense (DoD) and 
the Department of Veterans Affairs (VA), Department of Education 
(DoED), state governments and local communities for the families of the 
fallen--those who fall in combat, those who fall from invisible wounds 
and those who die from illness or disease.
    TAPS appreciates the attention the Committee has paid to making 
sure that veterans and surviving family members have access to quality 
education. Surviving family members using their education benefits 
often face many of the same challenges facing all students. TAPS is 
proud to work with other organizations, including the American Legion, 
Veterans of Foreign Wars, Veterans Education Success and Student 
Veterans of America to ensure safeguards are in place to protect all 
recipients of education benefits from the Department of Veterans 
Affairs and Department of Education.
    Indicative of the specialized support that TAPS provides is the 
education portal and individualized support on the education benefits 
available for the children and spouses of America's fallen heroes. TAPS 
staff members work with each individual to maximize the financial 
support they can receive to complete their education from both 
government and private agencies.
    We are most appreciative of the opportunity to comment on 
implementation of the Harry W. Colmery Veterans Educational Assistance 
Act of 2017.
    TAPS would like to recognize the outstanding support we receive 
from the Department of Veterans Affairs (VA) on behalf of the survivors 
we serve. For several years we were honored to have a Memorandum of 
Agreement (MoA) with the education specialists in the office of 
Economic Opportunity in the Veterans Benefits Administration enabling 
TAPS and the VA to work most efficiently in solving problems that 
surviving spouses and children encountered while accessing their VA 
education benefits. This relationship also allowed the VA to discover 
areas where policy or procedural processes could be improved so they 
could serve survivors more effectively.
    The VA Office of Survivor Assistance, including director Moira 
Flanders and her staff, works closely with TAPS to answer questions and 
concerns that are raised by surviving family members. We also 
appreciate the opportunities provided by the DoD/VA Survivors Forum, 
held quarterly, which works as a clearinghouse for information on 
government and private sector programs and policies affecting surviving 
families. This is ably facilitated by Craig Zaroff of the VA Benefits 
Assistance Service.
    TAPS was recently honored to enter into a new and expanded 
Memorandum of Agreement with the Department of Veterans Affairs. This 
agreement formalizes what has been a long-standing, informal working 
relationship between TAPS and the VA. The services provided by TAPS and 
VA are complimentary, and in this public-private partnership each will 
continue to provide extraordinary services through closer 
collaboration.
    Under this agreement, TAPS continues to work with surviving 
families to identify resources available to them both within the VA and 
through private sources. TAPS will also collaborate with the VA in the 
areas of education, burial, benefits and entitlements, grief counseling 
and other areas of interest.

Implementation Challenges

    We have heard from many of TAPS surviving spouses concerning the 
implementation of the Harry W. Colmery Veterans Educational Assistance 
Act of 2017. While they are most appreciative of the enhanced benefit, 
many have encountered stumbling blocks. We will outline these here.

Delimitating Date

    The Delimitating Date is the date found on a VA Certificate Of 
Eligibility (COE) that informs the individual of the date they are no 
longer eligible for education benefits. Presently the certificate reads 
``you have until X date to use your benefits, under this program which 
is 15 years from the date of death of the service member.'' As of early 
December, eligible students are still receiving the letters with the 
15-year delimitating date. While some students are aware of the 
delimitation date, they are reluctant to actualize their education plan 
until they have the correct information on their certificate of 
eligibility.
    TAPS did query the VA Office of Economic Opportunity about this 
discrepancy. The office offered that while IT upgrades are in process, 
the system does not currently allow the letter to go out without a 
delimitating date. To correct this problem, the VA Office of Economic 
Opportunity has taken several steps:

    <bullet>  Enhanced training to call center personnel to assure 
eligible recipients that indeed there is no delimitating date
    <bullet>  Sending letters informing spouses that have previously 
applied that there is no delimitating date
    <bullet>  Manually changing new certificates of eligibility until 
they find a permanent solution.

    We are appreciative that VA has heard our concerns about this issue 
and are in the process for coming up with long-term solutions to 
support surviving families.

    Surviving Spouse Michelle Fitz-Henry told us:
    I am incredibly grateful for the successes we have had in the 
Forever GI Bill and the hard work that was done to include all 
surviving spouses. This bill has been a life-changing benefit for me. I 
am currently enrolled in school and feel privileged to be given this 
opportunity. The benefit of education will afford me financial 
stability.
    Currently my Certificate of Eligibility has a delimiting date. I 
understand that surviving spouses, under the Forever GI Bill, are now 
able to use this benefit without fear of it running out before they can 
attend or finish their degrees. I have some decisions to make in the 
very near future but am concerned that the only documentation that I 
have shows that this benefit will expire in the not too distant future. 
I do believe that this could be a stumbling block. I have called the VA 
and my personal experience is that not all representatives are familiar 
with the changes for families of the fallen. I do recognize that the VA 
is a large institution and that many changes occur for many different 
groups of veterans, active duty, and survivors and it takes time to 
educate everyone.
    I would feel much more secure in planning out my education strategy 
if I had documentation to present to the school showing that I have no 
delimiting date.

IT Support

    The success of the implementation of the ``Forever GI Bill'' by the 
VA is dependent upon the updating of the VA information technology 
system. As mentioned above, something as simple as the elimination of 
the delimitating date is entirely dependent on changes to the IT 
system. We know this is in process by the VA. We hope there will be 
appropriate funding to expedite this process.

Getting the word out

    The more survivors know about their benefits, the better they are 
equipped to make informed decisions. We would like to see what the VA's 
communication plan is to publicize and inform veterans and survivors 
about changes to their benefits as a result of the ``Forever GI Bill.''
    While mandatory training for school certifying officials is 
included in the ``Forever GI Bill'' schools, we are concerned about the 
institutions of higher learning (IHLs) being aware of the changes 
coming in August 2018. We know that the Office of Economic Opportunity 
is pushing out information to IHLs. We hope there will be coordination 
within the IHLs so that the person actually talking to the student is 
aware of the changes.

Suggestions for further improvement

    TAPS biggest concern with all the changes being implemented on 
August 1, 2018, is that there will be delayed payments and processing 
time for payments for veterans and survivors enrolled for the fall 2018 
semester.
    Even with the few changes that went into effect this fall, TAPS had 
issues with institutions of higher learning demanding payment from the 
student because of delayed VA payments. Students receiving VA payments 
were not allowed to attend classes, register for Spring 2018 or use 
campus facilities (library, health center) because the VA payment was 
delayed. In some cases, students were put on payment plans they could 
not afford or forced to take out student loans with egregious 
origination fees in order to continue the education program.
    TAPS would recommend that students receiving VA payments have the 
same protections as those who receive Title IV funding such as Pell 
Grants and Federal student loans. These Title IV students are allowed 
to attend classes, participate in extra-curricular activities and use 
campus facilities, as long as the IHL knows that payment will arrive.
    TAPS strongly believes that the best way to do this is through a 
legislative change. We have been in discussion with the House Veterans 
Affairs Committee, majority staff to assist these students.
    The proposed legislation would give the Secretary of Veterans 
Affairs the ability to disapprove any course of education unless the 
educational institutions providing the course permits individuals to 
attend or participate in courses pending payment by the VA and accepts 
a Certificate of Eligibility as a promise of payment.

The Way Ahead

    Continued cooperation between the VA, the Committee and interested 
VSOs, MSOs and survivor advocates is essential to make the 
implementation of the ``Forever GI Bill'' a success. TAPS will continue 
to provide feedback to both the VA and the Committee on the experience 
of survivors.
                                 <F-dash>
                  Questions and Answers For The Record

                 Honorable David J. Shulkin M.D. to VA
    December 14th, 2017

    The Honorable David J. Shulkin M.D.
    Secretary
    U.S. Department of Veterans Affairs
    810 Vermont Avenue, NW
    Washington, DC 20420

    Dear Mr. Secretary:

    In reference to our Subcommittee on Economic Opportunity Hearing 
entitled, ``An Update on the Implementation of the Forever GI Bill, the 
Harry W. Colmery Educational Assistance Act of 2017 on December 12th, 
2017, I would appreciate it if you could answer the enclosed hearing 
questions by the close of business on January 19th, 2017.
    Committee practice permits the hearing record to remain open to 
permit Members to submit additional questions to the witnesses. 
Attached are additional questions directed to you.
    In preparing your answers to these questions, please provide your 
answers consecutively and single-spaced and include the full text of 
the question you are addressing in bold font. To facilitate the 
printing of the hearing record, please e-mail your response in a Word 
document, to Chris Bennett at Cluistopher.Bennett @mai l.house.gov by 
the close of business on January 19th, 2017. Ifyou have any questions 
please contact him at 202-225-9756.

    Sincerely,

    TIM WALZ
    Ranking Member

           Answers to Questions for the Record of the Hearing

    1. Please provide project management documents and timelines laying 
out the decisions that need to be made in order for on-time 
implementation of all of the provisions in the Colmery GI Bill, when 
they need to be made, and expected implementation dates.

    VA Response: The Colmery Act Program Executive Office (PEO) is 
working on a project management plan to ensure on-time implementation 
of all provisions. The project plan will capture all relevant tasks, 
milestones, deadlines, and dependencies for the operational, policy, 
information technology (IT), and communications requirements involved 
with each section, and will be updated as items progress. The PEO 
expects a draft plan by the end of January 2018.
    In terms of IT, fully satisfying all Colmery Act provisions will be 
a balance of meeting the most critical needs-Sections 501 and 107-in 
fiscal year (FY) 2018, coupled with a number of manually enabled 
processes. The Office of Information and Technology (OI&T) will 
implement Sections 501 and 107 alongside the Benefits Delivery Network 
(BDN) Decommissioning effort as a separate work stream. As noted in the 
response to question 7a below, in FY 2018, VA is implementing changes 
regarding the delimiting dates in award letters.
    Implementation of all other provisions in IT systems are planned 
for FY 2019 after the bulk of BDN Decommissioning is complete.
    The following high-level milestones (page 2) reflect current 
planning efforts overlaid with BDN decommissioning and other Education 
initiatives for managed services.

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


    2. Will the manual workarounds in the current system, in lieu of 
the larger IT overhaul that will not happen until 2019, impact the 
timeliness of benefits processing for the upcoming implementation 
deadlines?

    VA response: VA expects that the manual workarounds in development 
and the additional temporary Full Time Equivalent (FTE) hires will keep 
benefits processing timeliness consistent with recent performance. OI&T 
is committed to providing a solution to the most impactful provisions-
Sections 107 and 501-by August 1, 2018.

    a. Will the manual workarounds allow full implementation of the 
August 1st, 2018 provisions?

    VA response: VA expects its efforts, which also include providing 
job aids and detailed procedural advisories to Education Service staff, 
will allow the August 1, 2018 provisions to be implemented on-time.

    i. Is this response based on analyses that VA has done about the 
likely number of applicants for the various new provisions?

    VA Response: Yes. An analysis, including estimated changes to 
beneficiary volume, informed the implementation plan.

    b. How does VA plan to guarantee that every new processing 
procedure will be ready by August 1st, 2018?

    VA response: PEO is working closely with OI&T to provide staff the 
resources to process claims and work related to Colmery Act provisions. 
This includes short-term solutions by way of manual workarounds, job 
aids, and training plans to a long-term planning that includes 
modernizing Education Service processing system platforms.

    i. What are the interim targets VA needs to meet to ensure that the 
August 1st, 2018 deadline is met?

    VA response: PEO is collaborating with a project management 
contractor on a comprehensive project plan, which includes dependencies 
and timelines. In parallel, development of user stories and business 
requirements is on-going to support implementation of provisions 
effective as of August 1, 2018.

    c. If one or more of these workarounds do not work, does VA have 
contingency plans in place to ensure full, on-time implementation of 
the August 1st, 2018 provisions?

    VA response: As each workaround completes development, it is 
subject to thorough testing based on processing scenarios and, once 
implemented, a quality and production tracker is established to 
identify and rectify any defects. These risk control measures allow VA 
to make adjustments and correct issues that may present themselves 
post-implementation.

    d. Once VA receives the necessary appropriated funds for the large 
IT overhaul in 2019, when does VA expect to have the system operational 
so that manual workarounds are no longer needed?

    i. Has VA done an analysis and/or otherwise planned for the 
possibility that the manual workarounds might need to be in place for 
some time?

    VA response: Several critical pieces will be implemented within the 
Long Term Solution system in FY 2018-Sections 107 and 501, along with 
adjustments to award letters that ensure Veterans do not receive 
incorrect information about the expiration of benefits. These 
achievements will allow VA to ensure all Colmery Act provisions will be 
implemented on-time (in some instances with manual workarounds) while 
VA decommissions the BDN system which currently handles most Education 
claims processing and payments.
    Specific timing of additional systems updates beyond FY 2018 has 
yet to be determined, though VA hopes to have all provisions 
implemented with IT solutions by the end of FY 2019. VA is actively 
exploring the possibility of delivering Education benefits through 
managed services or a managed IT solution. VA recently issued a Request 
for Information on this topic and responses are being evaluated. Based 
on what VA learns, the Department will make a decision this spring as 
to which avenue (standard development, managed IT solution, managed 
business service) to pursue. Implementation of all remaining Colmery 
Act provisions will be a requirement regardless of the path chosen. VA 
expects implementation of the selected course to begin in the last 
quarter of calendar year 2018.

    3. What analyses did VA do to determine that it needed 200 
temporary employees for the upcoming deadlines?

    VA Response: A provision-by-provision analysis to estimate 
workload, including claimants and process changes, concluded that 200 
temporary employees were needed.

    a. When do all of these employees need to be on board in order to 
meet VA's implementation goals?

    VA Response: 27 employees are expected on board in January with the 
remainder by May 2018.

    b. How does VA plan to assess whether it may need to hire more 
employees prior to the deadline?

    VA Response: As VA better understands the associated workload, we 
will continue to assess and make necessary adjustments within existing 
authority and resources as required.

    c. Are there checkpoints built in over the coming months when such 
assessments can take place?

    VA Response: Yes, as provisions are implemented, VA will assess 
workload at regular intervals.

    4. What methods has VA used to get the word out about the new 
provisions in the GI Bill?

    VA Response: VA has taken a multi-faceted approach to promote the 
Colmery Act to Veterans and beneficiaries. This includes an extensive 
social media campaign with regular posts on Facebook, a Twitter Town 
Hall, a satellite media tour that reached an audience of over 3 
million, new Web sites (https://www.benefits.va.gov/GIBILL/
forevergibill.asp and https://benefits.va.gov/gibill/fgib/
restoration.asp), and posting Frequently Asked Questions (https://
gibill.custhelp.com/app/answers/list) for provisions with the most 
immediate impact on Veterans and beneficiaries.

    a. Is VA sending targeted notifications to individual veterans?

    VA Response: Yes, VA has sent targeted notifications to individuals 
impacted by Sections 109 and 106 and will continue to do so for other 
provisions, when appropriate. This will include outreach to Purple 
Heart recipients and those no longer impacted by the 15-year delimiting 
date for the Post 9/11 GI Bill benefit.

    b. Has VA also sent veterans e-Benefit or email notifications, in 
addition to traditional mail?

    VA Response: E-mail notifications were sent to individuals impacted 
by Sections 109 and 106 and three email missives (https://
www.benefits.va.gov/GIBILL/FGIBCommunications.asp) were sent on the 
Colmery Act, with additional resources and contact information, to over 
1.2 million individuals.

    c. Does VA believe it would be feasible to also call individual 
veterans?

    VA Response: VA does not have the capacity to call all individual 
Veterans, but includes call center information prominently in its 
outreach material, and encourages anyone with questions or concerns to 
contact VA. In addition, the wide use of social media is a key element 
of our outreach strategy.

    d. How is VA measuring the effectiveness its outreach and 
messaging?

    VA Response: The multi-faceted approach to promote the Colmery Act 
was done to reach the largest audience as possible who may engage with 
VA in different ways (i.e. online, social media, traditional media). VA 
has also coordinated messaging with Veterans Service Organizations and 
other stakeholders to further its reach. VA tracks metrics for outreach 
efforts and if low response/participation rates are identified outreach 
strategies are reassessed.

    5. VA testified that it sent 8,000 notification letters to student 
veterans who were affected by school closings and may be eligible for 
restored benefits. What percentage of the 8,000 students does VA expect 
to apply for restored benefits, and why?

    VA Response: VA is committed to restoring benefits to all eligible 
Veterans and is closely monitoring the receipt of applications and 
processing to inform potential future follow-ups to those who have not 
applied. As time progresses and additional data is collected and 
analyzed, VA will be better able to gauge expected rates and the 
reasons why some Veterans may not seek restoration at a point in time.

    a. If applications from these students increase, will the manual 
processing system be ready to handle the increased workload?

    VA Response: Yes, 27 claims processors are trained to work these 
claims.

    b. As of the date of the hearing, 250 students out of 8,000 have 
applied for restored benefits.

    i. Does VA believe this ratio is on track with what it expected in 
terms of numbers of people applying for restoration?

    VA Response: As of December 22, 2017, VA received over 450 
applications and continues to provide outreach on entitlement 
restoration, with the intention to do so for all eligible Veterans. 
Given that this authority is new, VA has no baseline to compare ratios 
against, but is collecting and analyzing data to make those 
determinations in the future.

    ii. Is VA able to track and account for eligible students who have 
transferred their credits (partially or fully) to another educational 
institution?

    VA Response: No, this is not data VA collects.

    6. What is the current amount of funding that VA estimates it will 
need appropriated next year in order for it to meet all of the Colmery 
GI Bill provision implementation deadlines?

    VA Response: VA's initial scoring estimate, by section based on 
anticipated level of effort, was approximately $70 million. Since that 
time, noting the criticality of Sections 107 and 501, as well as new 
lessons learned during implementation, the existing FY 2018 funding 
fully support these requirements. The forthcoming President's Budget 
will provide additional details on resource needs for FY 2019.

    7. Regarding the Certificates of Eligibility that are currently 
being sent out with incorrect 15-year delimiting deadlines:

    a. Please detail why it is expected to take several months to 
change the technical code that allows the VA to send out Certificates 
of Eligibility without deadlines.

    VA Response: VA Education Service manually processes all original 
Certificate of Eligibility letters and those are now being released 
with a correct description of the claimant's delimiting date. As of 
December 19, 2017, all manual ``award letters'' are also being released 
with a correct delimiting date.
    Letters generated through automated processing continue to show a 
delimiting date because the processing system currently creates a 
delimiting date for all Post-9/11 GI Bill recipients, and the ``rules 
engine'' uses the same data elements to make automated processing 
determinations. Changes to these dates require changes to program logic 
that calculate them based on Veteran characteristics and subsequent 
eligibility determinations of applicants. It is important to note these 
letters are not simply form letters, but are comprised of sections 
which are programmatically determined based on various business rules 
acting on the Veteran's data. Moreover, the process in which these 
letters are produced is a shared program module among a number of 
education chapters and not just those affected by the provisions of the 
Colmery Act. Care must be taken in the translation of this 
subpopulation's requirements in addition to the existing eligibility 
workflows to ensure other education benefit determinations are not 
inadvertently broken so as to result in erroneous information or other 
impact to Veteran benefits.
    In addition, there are non-technical considerations that will add 
time to the quality assurance of resulting system changes. For example, 
the same resources performing the testing also process claims and, at 
present, VA is entering into the peak enrollment period for Spring 
enrollments, which limits the number of resources available for 
requirements and testing.

    b. Please provide a detailed plan for how VA is going to fix this 
date issue on Certificates of Eligibility, including timelines.

    VA Response: On December 19, 2017, VA implemented the process to 
correct the delimiting date on the Certificates of Eligibility, and 
from this point forward these documents show the correct delimiting 
date, if any.

    c. Please list and describe the proactive and preventative steps VA 
is currently taking to minimize confusion over this issue until the 
correct Certificates of Eligibility will be sent out.

    VA Response: VA expects to send an email notification to impacted 
beneficiaries by January 31, 2018, and has leveraged Facebook, Twitter, 
mass e-mails, web postings, and briefed stakeholders on what the 
delimiting date removal means and to whom it applies.

                                 [all]
</pre></body></html>
